<html>
<title> - REQUEST FOR AUTHORIZATION OF ANOTHER BRAC ROUND AND ADDITIONAL REDUCTIONS IN OVERSEAS BASES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-115]
 
    REQUEST FOR AUTHORIZATION OF ANOTHER BRAC ROUND AND ADDITIONAL 
                      REDUCTIONS IN OVERSEAS BASES

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 8, 2012




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                      U.S. GOVERNMENT PRINTING OFFICE

 73-441                    WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a>  



                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               LARRY KISSELL, North Carolina
VICKY HARTZLER, Missouri             BILL OWENS, New York
BOBBY SCHILLING, Illinois            TIM RYAN, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
TIM GRIFFIN, Arkansas                JACKIE SPEIER, California
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
               David Sienicki, Professional Staff Member
                Brian Garrett, Professional Staff Member
                    Nicholas Rodman, Staff Assistant

















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Thursday, March 8, 2012, Request for Authorization of Another 
  BRAC Round and Additional Reductions in Overseas Bases.........     1

Appendix:

Thursday, March 8, 2012..........................................    39
                              ----------                              

                        THURSDAY, MARCH 8, 2012


    REQUEST FOR AUTHORIZATION OF ANOTHER BRAC ROUND AND ADDITIONAL 
                      REDUCTIONS IN OVERSEAS BASES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Bishop, BG Christopher D., Acting Deputy Assistant Secretary of 
  Defense for Plans, Department of Defense.......................     7
Lepore, Brian J., Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................     8
Robyn, Dr. Dorothy, Deputy Under Secretary of Defense for 
  Installations and Environment, Department of Defense...........     4

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    43
    Lepore, Brian J..............................................    61
    Robyn, Dr. Dorothy...........................................    46

Documents Submitted for the Record:

    Chart distributed by Dr. Robyn...............................    91

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    95
    Ms. Bordallo.................................................    99
    Mr. Courtney.................................................   101












    REQUEST FOR AUTHORIZATION OF ANOTHER BRAC ROUND AND ADDITIONAL 
                      REDUCTIONS IN OVERSEAS BASES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Thursday, March 8, 2012.
    The subcommittee met, pursuant to call, at 1:04 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. We want to welcome all of our members and our 
distinguished panel of experts to today's hearing that will 
focus on the administration's request for another Base 
Realignment and Closure round. I want to begin by apologizing 
to all of our witnesses for the fact that we have had to delay 
this because of our votes. Thank you so much for your patience 
and putting up with that delay.
    And I welcome this discussion to assess whether our 
facilities and infrastructure are aligned with our force 
structure, but to answer this question I think we need to 
assess the size of our Armed Forces. In my estimation there are 
two courses of action for Congress to consider. While our 
military exists in an era of peace and tranquility that 
includes reducing the size of our Armed Forces or one that 
presumes the changing security environment will challenge our 
strategic objectives and require a robust military to provide 
peace and stability.
    One does not need to look too far in our past to predict 
our future. Countless intelligence estimates underscore the 
fact that we will be challenged in any number of regions and by 
numerous nongovernmental entities. The proliferation of nuclear 
capabilities as sought by Iran and North Korea, the emerging 
influence of an expanding People's Republic of China, and the 
continued instability in Afghanistan, Syria, and Libya all 
point to an uncertain future where our Nation's Armed Forces 
will be called upon to provide stability.
    I believe in maintaining peace through strength. I believe 
that a strong economy requires a strong military to protect the 
free flow of goods around the world. And I believe in American 
exceptionalism.
    My friends, it is for these reasons that I believe our 
Nation is charting the wrong course with these sweeping 
military reductions. The President's new strategic guidance 
departs from a bipartisan strategy that has been in existence 
for nearly two decades.
    The shortsighted, budget-driven imperatives underpinning 
this strategy presume our military will not be required to 
prevail in two simultaneous regional engagements. Again, in my 
estimation this direction is fraught with danger and will place 
American interests as well as American lives at risk.
    Let me be very clear: I will oppose any initiative that 
seeks to undermine the preeminence of our military. I will 
oppose any effort that breaks faith with our service members 
and veterans. And I will oppose any effort that seeks to 
diminish the capabilities of our service members in favor of an 
expanded social agenda.
    The administration presumes that our military will go 
quietly in the night. Thus far, the silence of our uniformed 
leadership on this issue has been deafening. Speaking for 
myself and what I believe is the majority of Americans, our 
Nation cannot afford additional reductions in our military.
    As to the request that is before our subcommittee this 
morning, I look forward to better understanding the reason the 
administration believes that another round of base closures is 
necessary. In my initial assessment of this issue I believe 
that our current force structure is correct and our 
infrastructure is adequately sized for our future force. If the 
administration presumes that a reduced force structure is 
required to meet our future security challenges and cite this 
as the principal reason for this BRAC [Base Closure and 
Realignment] request I must move to vigorously oppose another 
round of BRAC.
    Joining us today to discuss reasons for another round of 
base closure are three very distinguished individuals, and we 
appreciate their expertise and their willingness to be here 
today. Dr. Dorothy Robyn is the Deputy Under Secretary of 
Defense for Installations and Environment. Brigadier General 
Christopher D. Bishop is the Acting Deputy Assistant Secretary 
of Defense for Plans. And Brian Lepore, Director, Defense 
Capabilities Assessment, the U.S. Government Accounting--
Accountability Office.
    Once again, ladies and gentlemen, we thank you all for 
being here.
    And I now recognize my good friend, the ranking member, Ms. 
Bordallo, for any remarks she may have.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 43.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Dr. Robyn, welcome. Welcome to our subcommittee. I have 
appreciated the opportunity to work closely with you over the 
past 3 years on issues pertaining to the realignment of Marines 
on Guam as well as some environmental issues.
    General Bishop, thank you for your service and for 
appearing before the committee this morning.
    And also, I welcome Brian Lepore, from GAO [U.S. Government 
Accountability Office], back to our subcommittee.
    Today our subcommittee is going to receive testimony on an 
issue that evokes a lot of passion and concern from our 
members. Many of us remember BRAC 2005 and some even previous 
BRAC rounds. As the former Lieutenant Governor of Guam, I 
remember working hard to protect the bases on Guam.
    And I have also found it very ironic that despite BRAC 
rounds on Guam, the Department of Defense continues to seek 
private or Government of Guam land to meet training 
requirements on the island. I think this serves to highlight 
how shortsighted the BRAC process can be given the dynamic 
nature of our military requirements.
    However, from my personal experience I am deeply concerned 
about the administration's intent to request another BRAC 
round. A 2007 GAO report and analysis indicated that the annual 
net recurring savings for the BRAC 2005 round was $4.0 billion 
while total costs for that BRAC round increased 66 percent, 
from $21 billion to $35 billion, compared to the BRAC 
Commission's reported estimates.
    Moreover, GAO estimates indicated that cumulative BRAC 2005 
savings would not exceed cumulative costs until 2018. Due to 
the significant upfront costs associated with BRAC and the 
length of time to see a payback, how can we afford another BRAC 
round, given the funding reductions mandated by the Budget 
Control Act?
    Furthermore, our discussion about overseas basing posture 
is very important for the current and future security of our 
Nation. As we decrease our operational tempo in Afghanistan and 
have ended the war in Iraq we need to make sure that our 
country is postured for the next century.
    I appreciate this administration's continued commitment to 
the Asia Pacific region. However, I am concerned that the 
fiscal year 2013 budget does not match the rhetoric of this 
strategy.
    This committee has remained supportive of efforts to 
increase our focus on the Asia Pacific region, but questions 
remain about the strategic value of recent realignment 
decisions. I do fear that the Department is making short-term 
decisions on overseas basing posture to the detriment of our 
long-term strategy and requirements. While I remain supportive 
of the overall goals of realigning Marines from Okinawa to 
Guam, I think the strategic value--not just perceived budget or 
political constraints--need to be better understood by me and 
the members of this subcommittee.
    I believe it is important for our Nation to maintain an 
intelligent, well-balanced forward presence of forces in 
overseas locations. It is important for us to find the right 
balance between permanent presence in some locations as well as 
reliance on host nation support and rotational forces.
    But the risks associated with finding balances must be 
weighed very carefully. I am concerned that these risks have 
not been clearly weighed in the matter of realigning forces in 
Japan, and I am also concerned about proposed reductions in 
Europe and the message that it sends to our allies in NATO 
[North Atlantic Treaty Organization], especially Germany.
    So today I look forward to the testimony from our witnesses 
and to our question and answer period.
    And I yield back, Mr. Chairman.
    Mr. Forbes. Thank you for those remarks, Madeleine.
    As we discussed prior to the hearing, I ask unanimous 
consent that it be made in order to depart from regular order 
so that Members may ask questions that follow the train of 
thought from the preceding Member. I think this will provide a 
roundtable-type format and will enhance the dialogue of these 
very important issues. So without objection, that is so 
ordered.
    And with that, Dr. Robyn, thank you for being here. We look 
forward to your statement, and the floor is yours.

   STATEMENT OF DR. DOROTHY ROBYN, DEPUTY UNDER SECRETARY OF 
   DEFENSE FOR INSTALLATIONS AND ENVIRONMENT, DEPARTMENT OF 
                            DEFENSE

    Dr. Robyn. Thank you very much, Chairman Forbes, and 
Ranking Member Bordallo, other members of the subcommittee. 
Thank you for the opportunity to testify on the Department's 
request for authority to conduct two more rounds of base 
realignment and closure.
    A year ago I spoke to a gathering of aerospace executives 
in Phoenix about what the Department of Defense [DOD] was doing 
about facility energy. At the beginning of the speech, as a way 
to explain the challenge and the urgency of the task that I 
faced in overseeing that, I pointed out that DOD has a very 
large infrastructure footprint--300,000 buildings, 2.2 billion 
square feet of space. That is three times as much space as 
Walmart, six times as much space as GSA [U.S. General Services 
Administration].
    I went on to talk about--in very excited way about all that 
we are doing to cut our energy costs on installations and 
improve energy security. Given that the audience was aerospace 
executives, I was looking forward to a lively exchange of 
questions about microgrids and other high-tech solutions.
    When I finished my speech the CEO [chief executive officer] 
of one of the largest defense contractors in the country 
quickly raised his hand. He said, ``How many of those 300,000 
buildings do you really need?'' It was a good question and it 
was for me a sobering reminder that at a time when the 
Department of Defense is cutting weapon systems and telling 
defense contractors they have to reduce their overhead, that 
defense industry leaders and others are looking to the 
Department to do just the same thing.
    And as you know, it isn't just weapon systems that we are 
cutting. In keeping with the new strategic guidance and to meet 
the demands of the Budget Control Act, which requires a cut of 
$487 billion over 10 years, we are also reducing our force 
structure.
    You have heard the numbers. The Army is reducing force 
levels by 72,000; the Marine Corps is resizing to 182,000 
active Marines; and the Air Force is eliminating nearly 300 
aircraft over 5 years. That, in a nutshell, is why we are 
asking for additional BRAC rounds.
    The math is straightforward. Force reductions produce 
excess capacity; excess capacity is a drain on resources. Only 
through BRAC can we align our infrastructure with our defense 
strategy.
    Now, I know that BRAC is not popular and I expect to get 
many tough questions today. Let me respond to two of them in 
advance.
    First, why can't we cut bases in Europe before we pursue a 
BRAC round here at home? Let me start by noting that we have 
already made significant reductions in our European footprint.
    In the last 20 years U.S. force presence in Europe, as 
measured by number of personnel and installation sites, has 
gone down by about 80 percent. Just since 2003 the Department 
has returned more than 100 sites in Europe to their respective 
host nations and we have reduced our personnel by one-third.
    And I distributed to you a chart showing just what Army has 
done in the last--in the last 5 years. And the chart also shows 
that over the next 3 years Army will close an additional 23 
sites, as previously announced.
    [The information referred to can be found in the Appendix 
on page 91.]
    Dr. Robyn. Now, with the recently announced force structure 
changes in Europe we can do more to consolidate our 
infrastructure there, and my office is working with the EUCOM 
[U.S. European Command] theater commander, his component 
commanders, and service leadership here in Washington to 
measure the capacity of all of our European installations. This 
inventory will allow us to analyze how much capacity can be 
shed and where.
    With the goal of long-term cost reduction we will assess 
the costs and savings of each proposed action and identify 
those with the highest payback. We anticipate having 
preliminary options for the Secretary of Defense to review by 
the fall.
    However, even a significant reduction of our remaining 
footprint in Europe will not achieve the needed cuts to overall 
infrastructure. Hence, our request for a parallel BRAC process.
    The second question--or criticism that I want to respond to 
is this: Why would we do--and, Congresswoman Bordallo, you 
mentioned this in your remarks--how can we afford another BRAC 
round given that the last one, the 2005 round, doesn't pay off 
until 2018? That is an eminently fair question but I would 
argue that the 2005 round is not the right comparison.
    Unlike the first four BRAC rounds, which paid off in a 
relatively short period of time, the 2005 round was not about 
savings and eliminating excess capacity. Carried out in a post-
9/11 environment when the Department was at war, it was about 
transforming installations to better support the warfighter.
    The Army, in particular, used BRAC 2005 to carry out major 
transformational initiatives, such as the modularization of 
brigade combat teams. Let me quote Dr. Craig College, the 
Deputy Assistant Chief of Staff for Army Installation 
Management: ``The urgency of war drove the Army to leverage 
BRAC 2005 as the tool to integrate several critical 
transformational initiatives, which, if implemented separately, 
might have taken decades to complete.''
    In short, the 2005 round took place during a period of 
growth in the military and it reflected the goals and needs of 
that time. Because the focus was on transforming installations 
as opposed to saving money and space, it is a poor gauge of 
savings that the Department can achieve through another BRAC 
round. The prior BRAC rounds, which reduced capacity and paid 
off in a relatively short period of time, represent a better 
gauge of such savings.
    And just for the record, let me note that the first four 
BRAC rounds generated a total of $8 billion in annual recurring 
savings--savings that we get each and every year. The total 
savings to date from the first four BRAC rounds is $100 
billion.
    For the BRAC 2005 round the annual recurring savings are $4 
billion, but because the payback period is longer we will not 
see the net savings from those until 2018.
    The total of $8 billion and $4 billion--$12 billion--
represents the additional cost that DOD would incur each and 
every year for base operating support, personnel, leasing costs 
had we not had BRAC. These annual savings or avoided costs are 
equivalent to what the Department would spend to buy 300 Apache 
attack helicopters, 124 Super Hornets, or 4 Virginia class 
submarines.
    Let me make a final point: Given the fiscal and strategic 
imperatives we face, if Congress does not authorize additional 
BRAC rounds the Department will be forced to use its existing 
authorities to begin to realign and close bases. One reason we 
want to avoid that approach is that if the Department acts 
outside of the BRAC process it is severely constrained in what 
it can do to help local communities.
    To elaborate, when the Department closes and realigns bases 
within the statutory BRAC process the local community is a key 
participant. Using the authorities provided in the BRAC Act, 
the Department--we work hard with--to help local communities 
respond following a base closure.
    This was not always the case. Following the 1988 and 1991 
BRAC rounds the Department of Defense was largely indifferent 
to the fate of communities that had hosted its bases for 
decades. The services stripped property of assets that would 
have made it more valuable to the community--they would strip 
out underground sprinkler systems. Environmental cleanup took 
forever and the process of disposing of property, a key asset 
around which the community could build its base reuse plan, was 
slow, bureaucratic, and penny-pinching.
    As a member of President Clinton's White House economic 
team, I led the Clinton administration's effort in 1993 to 
transform the way DOD and the rest of the Federal Government 
dealt with BRAC'd bases and the surrounding communities in an 
effort to promote job creation and economic development. My 
strongest supporter was then OMB [Office of Management and 
Budget] Director Leon Panetta, who had represented the 
California district that was home to Fort Ord when that base 
was closed as part of the 1991 BRAC round. The changes that we 
made laid the groundwork for many base--the many base reuse 
success stories from the 1990s that you hear about today.
    If the Department were forced to begin the closure and 
realignment process using its existing authorities, communities 
would have to fend for themselves to a much greater degree. 
Under that scenario, local communities would have no role in 
the process for disposing of installation property. Land 
disposal outside of BRAC is done on a parcel-by-parcel basis 
with no mechanism for taking big-picture considerations into 
account.
    Moreover, there would be no requirement for the services to 
dispose of the property in accordance with the local 
community's plans. Finally, there would be no special property 
disposal preference for the local community. By law, the local 
community would have to stand in line for the property behind, 
in order, other Federal agencies, the homeless, and potential 
public benefit recipients.
    In closing, let me restate the case for BRAC. The cuts in 
force structure that we are implementing and must implement to 
meet the requirements of the Budget Control Act must be 
accompanied by cuts in supporting infrastructure, including 
military bases. Absent a process for closing and realigning 
bases, the Department will be locked in a status quo 
configuration that does not match its evolving force structure, 
doctrine, and technology.
    Moreover, given the expense of our installation 
infrastructure, if we retain bases that are excess to strategic 
and mission requirements we will be forced to cut spending on 
forces, training, and modernization. We will also be forced to 
use our existing authorities to begin the realignment and 
closure process, a scenario that will deny communities the help 
they so deserve.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Dr. Robyn can be found in the 
Appendix on page 46.]
    Mr. Forbes. Thank you, Dr. Robyn.
    General Bishop.

STATEMENT OF BG CHRISTOPHER D. BISHOP, ACTING DEPUTY ASSISTANT 
     SECRETARY OF DEFENSE FOR PLANS, DEPARTMENT OF DEFENSE

    General Bishop. Chairman Forbes, Ranking Member Bordallo, 
and members of the committee, good afternoon. I am Chris 
Bishop. I am the Acting Assistant Secretary of Defense for 
Plans and Policy and I am here to answer any questions I can 
about the new defense strategy that is behind our posture 
decisions.
    The President and the Secretary of Defense recognize the 
changing geopolitical environment and our financial 
circumstances, to include the Budget Control Act for the tune 
of $487 billion, required to revise U.S. defense strategy. They 
led the civilian military leadership of the Department through 
an extensive deliberation to develop the most recent strategic 
guidance, which was issued on January 5, 2012.
    The Secretary's priorities as we went into the strategy 
were very clear: maintain the world's finest military. A 
smaller, ready, well-equipped military is preferable to a large 
force that has been arbitrarily cut across the board.
    Savings must come through a balanced approach. We need to 
preserve the quality of an All-Volunteer Force and not break 
faith with our men and women in uniform and their families.
    This strategy directed the Department to sustain a global 
presence with a rebalancing of our forces towards the Asia 
Pacific region and a sustainment of our presence in the Middle 
East. In Europe we are ensuring our ability to maintain defense 
commitments, including our NATO Article 5 commitment, and 
placing greater reliance on rotational presence and our 
partnership programs.
    In Asia the Department is working to make our posture more 
geographically distributed, operationally resilient, and 
politically sustainable. And last, as part of our strategy the 
Secretary of Defense, the chairman, and other senior leaders 
wanted to make sure we increased critical--we made critical--
increased investments in critical capabilities, such as 
cyberspace, special operations forces, and similar other 
capabilities.
    I will be glad to answer any questions, and thank you.
    Mr. Forbes. General, thank you.
    Brian Lepore.

 STATEMENT OF BRIAN J. LEPORE, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lepore. Thank you, Mr. Chairman.
    Chairman Forbes, Ranking Member Bordallo, and members of 
the subcommittee, thank you for the opportunity to be here 
today to present to you our preliminary findings on our review 
of--and oversight of BRAC 2005. As you know, GAO serves as an 
independent and objective observer of the BRAC process and we 
review implementation of the BRAC recommendations in just the 
same way as we review implementation of many other Federal 
programs.
    We have issued many reports on BRAC 2005--about 30 to date, 
Mr. Chairman--and also, as directed by the subcommittee, as you 
know, we are identifying lessons learned from BRAC 2005 and we 
will be reporting to you on that later this year.
    My testimony today is based on our prior and our current 
work, and I will make two points. First, I will identify the 
key factors and challenges from BRAC 2005, and I will provide 
to you our latest cost and savings estimates.
    Now, my first point: Some of the key challenges from BRAC 
2005, some stem from the atypical way that DOD used BRAC. Here 
is what I mean: Prior rounds were more focused on saving money 
by reducing excess infrastructure, but this round was 
different. DOD established force transformation and enhancing 
jointness as goals along with reducing infrastructure to save 
money. These goals and the selection criteria focusing on 
military value led DOD to propose some atypical BRAC 
recommendations, and that is my point.
    The round's goals and the military value selection criteria 
help to explain some recommendations that DOD proposed to the 
commission and the consequent outcomes from BRAC 2005. Here is 
an example: the consolidation of supply, storage, and 
distribution functions in the Defense Logistics Agency. The 
recommendation is to transform business processes after 
transferring them to the military services but this required a 
process to involve key stakeholders across the services and 
strategic agreements, among other things--a little unusual 
approach.
    Also, initiatives outside of BRAC can impact 
transformational recommendations within BRAC. Let me explain. 
DOD wanted to increase recruiting and foster jointness by 
consolidating functions in new Armed Forces Reserve Centers all 
across the country. The Army was to introduce 44--to implement 
44 recommendations to construct 125 new Armed Forces Reserve 
Centers, but compounding the challenge of all of this 
construction was that it took place at a time when the force 
structure was changing among many of those units slated to 
occupy the centers.
    Transformational recommendations can have far-reaching 
consequences but may not necessarily be focused just on saving 
money. Here is an example: The Air Force and the Air National 
Guard were implementing 37 recommendations affecting 56 Air 
National Guard bases to better support the future force 
structure.
    As we previously reported, these recommendations were not 
likely to produce net annual recurring savings. The 
recommendations led to significant implementation challenges, 
also--completing staffing documents, ensuring adequate capacity 
at technical schools, staff getting new missions, for example. 
Thus, implementing transformational-type recommendations can 
require significant collaboration and coordination among 
stakeholders, sometimes at multiple levels of government, and 
effective implementation planning and execution.
    We saw challenging interdependent recommendations. Delays 
in one affected others.
    Here is an example: The Communications-Electronic Life 
Cycle Management Command was scheduled to move from Fort 
Monmouth, New Jersey, to Aberdeen Proving Ground, in Maryland, 
in a recommendation. But in another recommendation at Aberdeen 
the unit there had to move out of Aberdeen and move to Fort 
Lee, Virginia, first. Construction delays at Fort Lee rippled 
back to Aberdeen, delaying construction supporting the 
relocation from Fort Monmouth. So interdependent 
recommendations were a key challenge in BRAC 2005.
    The commission reported its struggle to understand the 
impact on bases that were both gaining and losing missions at 
the same time and felt they would have benefited from the staff 
expertise from successive and overlapping BRAC rounds like 
those in the 1990s. Here is why: core staff stayed in place 
from one round to the next. The 2005 commission felt that its 
staff had a steep learning curve.
    Now, my last point: the cost and savings from BRAC 2005. 
DOD's fiscal year 2011 budget shows BRAC costs grew from $21 
billion to about $35.1 billion. Military construction costs 
contributed about $2.4 billion of that.
    Construction costs are partially explained because DOD 
transferred about 123,000 people from one location to another 
without reducing the force structure. Thus, DOD effectively 
concentrated more people on fewer bases since about over 20 
major bases did close in this BRAC round and incoming personnel 
need places to work and other support, thus fueling much of 
this military construction.
    Now, the savings: DOD's budget shows net annual recurring 
savings now at about $3.8 billion, so DOD should recoup the 
upfront costs of BRAC 2005 in 2018, the break-even point. That 
said, the commission's 20-year net present value savings 
estimate has decreased by 73 percent to about $9.9 billion.
    Now, some recommendations were known to be unlikely to 
achieve savings in the 20-year net present window all along. 
The commission approved 30 such recommendations in 2005, 
although that has now grown to 77 recommendations.
    Mr. Chairman, this concludes my prepared remarks and I 
would be happy to answer any questions that you or the other 
members of the subcommittee may have.
    [The prepared statement of Mr. Lepore can be found in the 
Appendix on page 61.]
    Mr. Forbes. Mr. Lepore, we would like to thank you and all 
those who work with you for the great job you guys do over 
there at GAO, and thank you for being here today.
    To all of our witnesses, again, thank you for being here. I 
thanked you and--for your patience in being here with us 
through these votes.
    I also thank our Members. I know some of them are going to 
have to leave and have travel plans, so I am going to defer my 
questions until the end to make sure as many of them can get 
theirs in as possible.
    And so I am going to at this point in time recognize the 
distinguished gentlewoman from Guam for any questions she might 
have.
    Ms. Bordallo. Thank you, Mr. Chairman. I will make mine 
quick.
    Mr. Lepore, GAO has written substantially about the impact 
of previous BRAC rounds. The GAO has done a very thorough job 
in detailing the cost increases to implement BRAC 2005 as well 
as the reduced payback time. If--and I stress, if--another BRAC 
round were authorized, what could the Congress do to help 
ensure a quicker payback time?
    Mr. Lepore. Congresswoman Bordallo, I think the key point 
that I would make is that the choices that DOD makes in terms 
of selecting the goals of the round, the reasons for doing 
BRAC, as well as the selection criteria that they propose, go a 
long way toward explaining the nature of the recommendations 
that are put forward. Thus, if saving money is going to be the 
key goal of BRAC--of our future BRAC round, should you 
authorize one, then it is a fair question to ask them what 
goals they propose and how the military selection criteria, or 
whichever selection criteria they choose, will actually help to 
achieve those goals.
    Ms. Bordallo. Thank you.
    Dr. Robyn, the Department, in its fiscal year 2013 budget, 
has suggested significant personnel and force structure 
changes. Unlike the military transformation efforts of last 
decade, these current changes seem aimed more at cost savings 
given our fiscally austere times. Are these current forces 
structure changes and, for example, retirement of aircraft in 
the Air Force, foreshadow where the Department may use BRAC 
authority if another round was authorized?
    Dr. Robyn. No, I don't think that is a fair--I don't think 
it is--it is reasonable to think that that is the case. When we 
do a--a BRAC round we are--the process requires us to consider 
every installation equally. So you can't really say, oh, 
because we are cutting that particular part of the force 
structure it is necessarily going to impact that installation.
    Under the rules of BRAC--and this is one of the strengths 
of the process--we look at everything equally. So even if a--
you were cutting a weapon system at a particular base you would 
consider that base for additional missions.
    So I would not draw that--that link that you are--that you 
are----
    Ms. Bordallo. Thank you.
    I just have one quick question, Mr. Chairman.
    My final question is for you, Dr. Robyn, or General Bishop. 
Can you detail the efforts that have been ongoing to look at 
our overseas basing posture? I would like to and think it is 
important for members of this subcommittee to understand what 
metrics and analysis are ongoing to look at our overseas bases.
    To what extent are we factoring in host nation support, 
like in Japan, where they pay for our forces stationed in the 
country to travel to their training locations? I have always 
been concerned about some comments from Members in the other 
body that want to broadly target overseas bases without having 
a very solid, analytical basis for these comments.
    And I am also curious how this overseas basing analysis 
will impact our overseas location in the Asia Pacific region. 
How does the President's announcement of a pivot to the region 
make a difference in the analysis?
    Either one of you?
    Dr. Robyn. I think some of what you are asking we would be 
happy to provide but we can't do it in an open hearing.
    From an installations perspective, we will align the 
infrastructure to properly support evolving operational 
requirements and strategic commitments. Our current analysis is 
focused heavily on our legacy infrastructure in Europe, 
particularly in view of the force structure changes--strategic 
changes we announced there, the elimination of two BCTs 
[Brigade Combat Teams] and associated support forces, decreases 
in Air Force presence, decreases in required support to CENTCOM 
[U.S. Central Command], and I have talked about our--our work 
with the EUCOM theater commander.
    As you know, the Asia Pacific is an area where we are 
trying to enhance our focus and the buildup of Marines on Guam 
is part of that.
    General Bishop, would you like to add to that?
    General Bishop. Ma'am, thank you. A couple of comments, if 
I could.
    We will be providing the required NDAA [National Defense 
Authorization Act] reports--one on the Pacific Asia region at 
the end of June, which will describe in detail that posture 
laydown, and we have a second study that you have asked us to 
do, which is the global view, and that will be completed March 
2013, and we anticipate that will be fairly--fairly complete.
    If I could, I would like to make a comment about the Asia 
Pacific as an example. Part of what the senior leadership of 
the Department has wanted to do is have a very geographically 
distributed presence, and a great example of this is how we are 
looking at the Marines, and the Marines in Okinawa, in Hawaii, 
in Guam, in Australia. And of course, Australia--and I can talk 
about this more as the--later in the hearing if you would 
like--Australia will be a--what we call a low-cost, small 
footprint presence because that is a rotational force there.
    So we are looking at the Pacific in a very broad way. We 
are looking at it perhaps a little differently than before, 
trying to strengthen the places that have provided tremendous 
value for us and provide additional posture elsewhere, ma'am.
    Ms. Bordallo. Thank you very much.
    I yield back, Mr. Chair.
    Mr. Forbes. Thank you, Madeleine.
    The distinguished gentleman from Georgia, Mr. Scott, is 
recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    And I just, again, want to remind everybody that the money 
taken out of--out of national security is not going to go to 
pay down the national debt or reduce the deficit; it will, in 
effect, go to fund social programs for which, quite honestly, 
we don't see a willingness to--to cut, and I think that puts 
every American at risk.
    But General, you said that you would be happy to explain 
anything about the U.S. defense strategy that has changed. A 
little less than 12 months ago there was a proposed reduction 
of 25,000 uniformed personnel in the Army; now it is 75,000. 
Can you, in approximately--make--make it brief, but tell me 
what the--what change in the defense strategy has led to a 
three-fold increase in the number of soldiers that are going to 
be terminated?
    General Bishop. I would say it is in a broader context as 
we look at the--the drawdown in Afghanistan, the drawdown in 
Iraq, as we look more globally. A good example would be Europe, 
for example. We have had four combat brigades in Europe for 
quite some time. There have been discussions the last number of 
years with both administrations on how many BCTs there should 
be in Europe.
    Truth be told, as you think about the work--the ongoing 
events in Afghanistan and Iraq, some of that BCT presence has 
not been in Europe for some time because it has been in Iraq 
and Afghanistan engaged. So as the Army looked at things in 
general I think they are heading towards a reduction of about 
eight BCTs, you know, worldwide, and two of those would come 
out of Europe, just if--as an example, if I could offer.
    Mr. Scott. Do you think the world is going to be a safer 
place tomorrow than it is today?
    General Bishop. That is a difficult question for me to 
answer. I would say from the----
    Mr. Scott. Let me apologize for interrupting you, then, but 
the bottom line is, most of us don't think it is going to be 
safer tomorrow than it is today.
    Dr. Robyn, you said that math is straightforward. You work 
with the DOD yet the DOD is unable to produce an audited 
financial statement. They have, for the last 20 years, been 
under a law that says that they would produce an audited 
financial statement.
    Have they simply been negligent in their duties to do that 
or have they just decided not to comply with the law?
    Dr. Robyn. Well, that is a little outside my lane. I 
oversee real property, and the normal--so I--I get involved in 
that debate only insofar as it applies to real property. The 
normal rules of accounting don't--don't--you know, DOD is a 
funny place. It is certainly not--I mean, there is enormous 
amount of oversight, including by you folks. So I don't think 
it is at all a dereliction of duty.
    Mr. Scott. But they cannot produce it and they have had----
    Dr. Robyn. Well, I believe the new Secretary Panetta has 
committed to--to doing that by--I mean, we have always had a 
deadline. It is a question of when we--when we have it. I 
believe he accelerated the process. This, as I say, this is not 
directly in my lane.
    Mr. Scott. How many square feet is the Pentagon?
    Dr. Robyn. Oh. I don't know. I don't know.
    Mr. Scott. The largest building in the world and you are in 
charge of it----
    Dr. Robyn. Yes. I know the 2.2 billion for all of our 
facilities; I don't know what it is for the----
    Mr. Scott. It is about 6.5 million square feet----
    Dr. Robyn. Okay. Good.
    Mr. Scott [continuing]. If I am not mistaken, somewhere in 
there. How many civilians work at the Pentagon?
    Dr. Robyn. Roughly 20,000 to 25,000.
    Mr. Scott. 20,000 to 25,000.
    Dr. Robyn. Right.
    Mr. Scott. How many total people work at the Pentagon?
    Dr. Robyn. Well, that was the number that I--I think it is 
20,000 to 25,000 people.
    Mr. Scott. Okay. That is a pretty big difference. That is 
about a 20-plus percent----
    Dr. Robyn. You mean whether it is 20,000 or 25,000?
    Mr. Scott. Yes, ma'am.
    Dr. Robyn. 23,000, I am hearing from the----
    Mr. Scott. Okay. How many of them are civilian?
    Dr. Robyn. I don't know the ratio of civilian to military.
    Mr. Scott. It seems to me that the civilians at the 
Pentagon are perfectly willing to recommend reductions of those 
who are in the fight--our warfighters, our soldiers--and 
reductions of those who are working to support our warfighters, 
yet when we ask them about reductions to the areas where they 
work those--those areas seem to be off limit to reductions.
    So I can tell you, as somebody who has a large base in 
their district in Robins Air Force Base, and I have a 
tremendous number of bases in the State of Georgia that I 
represent, we are extremely concerned about BRAC--extremely 
concerned not--not so much because of what it is, but because 
of--the DOD's math doesn't, quite honestly, in my opinion, 
sometimes seem to be straightforward, and there seems to be the 
willingness of the civilians at the Pentagon to cut the 
military but, quite honestly, not look at where the waste is, 
which may very well be in the civilian workforce and the--the 
procurement processes.
    Mr. Chairman, I will yield back my time and ask that we get 
that audited financial statement from the Pentagon as soon as 
possible----
    Mr. Forbes. Good.
    Mr. Scott. It has been 20 years.
    Mr. Forbes. Dr. Robyn, if you would like to answer you can. 
As I told you at the beginning, we want you to have the ability 
to answer any of the questions. But if you would like to take 
that for the----
    Dr. Robyn. Well, sure. I will get back to you in terms of--
but I--I think, I mean, BRAC--BRAC affects civilians. It 
doesn't just affect people in uniform; it affects--it affects 
civilians who work in--and it affects communities.
    [The information referred to was not available at the time 
of printing.]
    Dr. Robyn. And we have a--you know, our country was 
established around civilian control of the military. We were 
told by Congress to reduce the budget by $487 billion over 10 
years. You can't do that without cutting infrastructure. It 
costs us $55 billion a year to maintain our installations and 
we have to be----
    Mr. Scott. But, ma'am, you are more willing to cut the men 
and women that are out there--you are more willing to cut the 
men and women that are out there putting together the equipment 
that the men and women in the war need than you are to cut 
those who, quite honestly, don't get any dirt under their 
fingernails.
    Mr. Forbes. And the gentleman's time is expired.
    The distinguished gentleman from Connecticut, Mr. Courtney, 
is recognized for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman.
    You know, Dr. Robyn, you just cited the Budget Control Act 
as the sort of mission of what is behind this proposal. 
However, you know, since Secretary Panetta announced his 
request for authorization of BRAC he has never once cited a 
single penny of projected savings within any framework through 
the Budget Control Act, whether it is the first 5 years or the 
first 10 years.
    Under the best scenario--you know, if you get full 
authorization next week and you begin your process, by your own 
testimony and by his own comments there is no question there 
are upfront costs that are associated with the BRAC. We know 
that from, you know, the GAO report.
    Yet, the budget that got sent over from the administration, 
again, gave us nothing in terms of, you know--you know, how 
many Virginia class subs or how many helicopters or how many 
other weapons platforms it is going to cost for you to do the 
early year implementation of BRAC. And frankly, without that, 
at the same time that by your own testimony it is clear that 
the Pentagon is already doing internal governance for BRAC 
process--you are already moving--this train is moving in your 
Department. You haven't given us language for BRAC 
authorization, which, you know, we--we need to pass that I--
last time I checked. And you haven't given us a single number 
in terms of how, you know, we can really evaluate whether or 
not this even fits within the Budget Control Act at all.
    And, you know, to me, you know, that gap--that absence of 
any hard, you know, budget data about why--why we should do 
this, and yet all we--you know, we hear the Budget Control Act 
cited but we have been given nothing to show where it fits in 
within the caps that are--that are part of the Budget Control 
Act. I mean, I think the reason why is--and the, you know, the 
Secretary said, well, because he has to wait for--for Congress 
to do it and we don't want to project something that may not 
happen, okay, and that is, you know, respectful of the process 
and I appreciate that. But frankly, I think the other reason 
is--is I think everybody who--who knows this process and can 
read a GAO report knows that even in the best BRAC rounds it 
costs money to do this.
    So when are we going to see those numbers, in terms of how 
much you say this is going to cost?
    Dr. Robyn. You mentioned two issues. Frankly, we were--I 
asked our comptroller the other day what--you know, why didn't 
we put something in, and he said, frankly, we just didn't have 
time. I mean, this, you know, we--we were debating this. We 
were debating a lot of things. And the decision to ask for two 
rounds of BRAC was under debate. We did not have time.
    Had we had time it would have taken the form of a cost 
wedge, not a savings number, because we don't know what the--we 
can estimate what it would cost based on prior BRAC rounds. It 
is not a terribly good estimate but we have done that before.
    In earlier years we did not put anything in the budget in 
terms of what BRAC would--would cost or save up until fairly 
far along in the process. My understanding is we began putting 
in a cost wedge. It is a very, very rough--rough analysis. So, 
you know, I think we could probably come up with something but 
obviously it won't be--it won't be in the budget.
    In terms of what are we doing to move out--is the train 
moving, we--we do--our legislation is at OMB. I expect it to be 
here any day now. I think by law it has to be here by the 17th 
of March and it--and it will be, and it will look, I believe, 
very much like the past legislation.
    We are doing those things that can be done without 
authorization. We are doing an inventory. We are looking at our 
analytic tools, things like COBRA [Cost of Base Realignment 
Actions], looking at whether we need to update the tools that 
we have.
    We are doing the things that we can do so that if we do get 
authorization for a 2013 round we can move out smartly, but I 
wouldn't--I don't think it is fair to say the train----
    Mr. Courtney. You know, again, I appreciate the honesty of 
your answer in terms of the comptroller's inability to give us 
a number, but frankly, you know, if we are going to see 
testimony that touts the transparency of what is going on here, 
at the same time you are asking for authorization--I mean, look 
at--under the best scenario we are probably not going to get a 
defense authorization bill until after the election. It will 
probably be a lame duck measure.
    Dr. Robyn. Right.
    Mr. Courtney. 2013 is when you are asking for an actual 
list to come out. You know, that is just completely unrealistic 
and--and frankly, unfair to ask Congress to--to accept that 
kind of a timeline when you haven't given us a scrap of 
information in terms of savings.
    I yield back, Mr. Chairman.
    Mr. Forbes. Thank you, Mr. Courtney.
    Distinguished lady from Missouri, Mrs. Hartzler, is 
recognized for 5 minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman. I was thinking the 
same line of questioning as my colleague here.
    In order to call for this there has to be some 
justification that it is going to save money, I would assume. 
So what is that assumption? What types of savings are you 
hoping to achieve with a round of BRAC?
    Dr. Robyn. Well, BRAC always saves money. The question is 
when is--when is that break-even point. And as I said before, 
it was--it came, that break-even point, the point where you 
begin getting net savings, came relatively soon in the first 
four rounds, later in the BRAC 2005 round because it--as----
    Mrs. Hartzler. Right. I am sorry. I didn't want to 
interrupt but I am----
    Dr. Robyn. No, no, no. That is fine.
    Mrs. Hartzler [continuing]. 5 minutes.
    But you are saying that we have to cut $487 billion with 
the Budget Control Act over 10 years and so because of that you 
are going to have to have BRAC in order to make up part of that 
$487 billion. So how much of that are you anticipating saving 
through BRAC?
    Dr. Robyn. BRAC is a response to force structure cuts, and 
the force structure cuts are a response to both fiscal 
realities--the Budget Control Act--and to strategic changes----
    Mrs. Hartzler. Okay. So if it is not because of the Budget 
Control Act it is because of force structure change then won't 
we have a larger force structure still than before pre-9/11? 
Even with the drawdowns we will still have a larger troop force 
than we had then. So we needed to house them then; we needed to 
have a place for them to train. And so what has changed?
    Dr. Robyn. Well, we have 500--today we have 500 fewer 
aircraft than we did in--after the 1995 round. We calculated in 
2004 that at that time we had 24 percent excess capacity in our 
infrastructure. You know, rough--those were crude estimates but 
we--we did those calculations, sent it up to you all in a 
report. That was 2004--24 percent excess capacity.
    By our calculations, again, we think we reduced excess 
capacity in the 2005 round by only 3 to 5 percent, so we began 
with excess capacity, and I think you heard from--I think you 
have--my colleague on the Air Force said that yesterday in 
another--another hearing. The force structure cuts will 
generate additional excess capacity. There is just no two ways 
around that. And that is what we need to respond to.
    Mrs. Hartzler. How much excess infrastructure do you think 
we have right now?
    Dr. Robyn. I mean, the only thing I can give you is this 
2004 report. That is the best thing I have. We have not done 
that kind of analysis.
    [The information referred to was not available at the time 
of printing.]
    Mrs. Hartzler. So you don't know how much infrastructure 
you have. You don't know how much savings you are going to 
have. You don't know how much cost this is going to have. And 
yet, you are coming to us and asking for BRAC?
    Dr. Robyn. You never know what your costs and savings from 
a BRAC round are going to be until you undertake it. You do 
have a sense that you have got--we knew in--in the late 1980s 
that we had excess capacity. I don't know if we knew exactly 
how much. And we knew at the end of 1995 that we still had 
excess capacity.
    We began asking for--when I was still in the Clinton White 
House we began asking for another BRAC round in 1997, 1998, and 
Congress finally gave us that in 2001. But because of changes 
in circumstances--9/11 and the war in Iraq--the 2005 round 
didn't focus on cutting excess capacity; it focused on 
transformation of the Army.
    So we had some level of excess capacity even at the end of 
the 2005 round, and we can see that we are going to have more 
with the force structure cuts.
    Mrs. Hartzler. You would think there would be a cost-
benefit analysis done from that. The information I have shows 
the administration indicated the services had between 15 and 20 
percent excess infrastructure before 2005, yet they only closed 
1 percent of the infrastructure.
    And so you should be able to say, ``Okay, we have 19 
percent extra infrastructure, and here is X amount of dollars 
it is costing us, and so here is how much we are going to save 
if we do it,'' as some justification. So you don't have those 
figures now?
    Dr. Robyn. Well, I can show you our 2004 report that shows 
that we had 24 percent excess capacity. I don't want to fall on 
my sword over the statistical techniques that were used to get 
that but it was a reasonable estimate--24 percent. The BRAC 
2005 round eliminated, again, using similar techniques, roughly 
3 to 5 percent of capacity. So that suggests roughly 20 
percent.
    Now, if you want to--you know, again, I mean these are 
really rough numbers. We spend $55 billion a year on 
installations. You can take 20 percent of--of that as some 
rough order----
    Mrs. Hartzler. I think that would be helpful for all of us 
through the process if you give us more hard data.
    Thank you.
    Mr. Forbes. Thank you, Mrs. Hartzler.
    Mr. Loebsack, you are recognized for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair.
    And I want to thank the ranking member and you both for 
having this important hearing today. The more I sit here and 
the more I listen the more I am kind of reminded of Charles 
Lindblom, who used to talk about muddling through.
    And it is actually pretty disconcerting, I have to say. I 
mean, a lot of us who--who consider ourselves at least social 
scientists if not something more than that, and that is who I 
was, numbers matter. Numbers make a big difference in--and now 
that I am here in Congress and--and responsible for taxpayer 
dollars and making sure they are spent correctly I have to tell 
you that unfortunately, the more I hear today the more 
disconcerting all this is, and the more concerns I have, and 
the more I wonder if at best what is happening here is an 
attempt at muddling through. And that is not meant to be a 
compliment. I am sorry.
    It is really a very, very difficult situation and I have a 
lot of questions about even the wisdom of another BRAC given 
that--that taxpayers won't even see the upfront $35 billion 
cost of the 2005 BRAC start to be paid off--even start to be 
paid off, until 13 years after that round was initiated.
    And I understand, I mean, there are a lot of questions out 
here, a lot of unknowns and all the rest, but given all the 
unknowns then that makes me question even more why the heck 
people are thinking about doing another BRAC. It just doesn't 
seem to make much sense to me given all those--all those 
unknowns.
    And, you know, I want to go back a little bit to data and--
and all the rest, which, you know, is a concern today. But my 
first question is, would--will the Department be open with its 
data collection and the process that it uses to gather those 
data as we go through this if we were to go through this, and 
what steps would be taken to ensure that openness?
    Dr. Robyn. First, let me say, thank you for invoking 
Charles Lindblom. I don't think I ever thought I would be at--
--
    Mr. Loebsack. Not everybody here knows----
    Dr. Robyn [continuing]. A hearing where that would--that 
would happen, but I do. I went to public policy school and I 
read Charles Lindblom, and he was one of the greats. And I have 
got to say, I know this is not where you were going, but, you 
know, I think among people like Charles Lindblom BRAC is an 
amazing process. I mean, here you had a need to close bases; it 
worked in a very political, partisan way; it did not work--the 
process didn't work in the 1960s and the 1970s.
    Dick Armey came up with a marvelous mechanism. When the 
task is to impose harm--do something that is going to impose 
enormous harm on individual members but be for the collective 
good, do it in this all or nothing way. What a marvelous 
mechanism. And people come from all over the world, literally, 
to talk to us about how BRAC works. OMB is leading a civilian 
version of BRAC. You know, it is tough. It is really, really 
tough, and that is why we are having the discussion that we 
are.
    And I agree. I think numbers are important. It is ironic 
because I had an interesting exchange with Congressman Farr, 
from California, yesterday, who feels that we go too far in 
quantifying things, that we use this COBRA model that reduces 
everything to costs and benefits and we miss things like the 
fact that if the Naval Postgraduate School is in Monterey you 
are going to be able to attract eminent scholars----
    Whereas you are not if it is in Fort Huachuca. That was a 
place where the commission came down against the Army.
    So I think if--you know, I think we have to be careful that 
we use numbers a lot. We quantify a lot in the BRAC process in 
an effort to--when--we don't share it when it is an internal 
DOD debate; we share it when it goes to the commission and the 
idea is that then it becomes--it is supposed to be transparent 
so that the commission can hold hearings.
    Mr. Loebsack. I have just got a minute left so I just want 
to----
    Dr. Robyn. Yes. I am sorry.
    Mr. Loebsack. That is okay. I think there might be a number 
of people who will maybe question the assumption at the outset 
that this is all going to be for the collective good. We have 
to accept that assumption in the first place to go forward with 
any kind of a BRAC, and I am not sure that we are all willing 
to accept that at this point.
    But the second thing you mentioned, Congressman Farr and 
the Naval Postgraduate School, I have a real question about the 
ability of communities who would be affected by any of this--a 
challenge the data and the rating of installations prior to any 
of this going into effect. Can you speak to that issue?
    Dr. Robyn. Well, I thought--I had a--a conversation with 
Congressman Courtney before the hearing started and he told me 
that the folks in New London did not have access to the data 
that DOD used to deliberate the--that issue internally. I 
thought--I will have to get back to both of you on this--I 
thought that the idea was we keep it confidential while we are 
debating within DOD for very good reasons; it then becomes very 
transparent once it goes to the commission.
    Brian, can you speak to this?
    Mr. Lepore. It is my understanding that much of the data 
does eventually become public. I think Dr. Robyn does make an 
important point that the process, of necessity, probably, does 
need to occur in some level of secrecy--at least the part where 
DOD is developing the recommendations that it proposes back to 
the commission. But my understanding is it becomes public 
eventually. I can't speak to that specific----
    Mr. Loebsack. It needs to, if I might just say that.
    I have to yield back at this point. We have already gone 
over. And I thank you, Mr. Chair.
    But that has to be public. We have to have that 
transparency in a democracy. That is all there is to it. So 
thank you very much.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Dave.
    Mrs. Roby is recognized for 5 minutes.
    Mrs. Roby. Thank you, Mr. Chairman.
    Thank you for all being here today.
    I have a very specific timing question, and, you know in--
the 2005 BRAC was authorized in December of 2001 and initial 
guidance was not given by the Secretary of Defense until March 
2004. How in the world are you planning on accomplishing any 
type of assessment and how do we expect to approve, authorize, 
or complete a full BRAC in significantly less time under the 
President's request? It doesn't seem possible, and as suggested 
before, certainly not a fair, transparent process.
    Dr. Robyn. Well, two issues. Secretary Rumsfeld actually 
issued a memo in 2002 which laid out the objectives. I have 
seen that same reference that you have and I think there was 
another document that came out in 2004, but the--the kickoff--
what we call the kickoff memo came out in November of 2002 and 
laid out the objectives.
    And in this case, where you had a compressed time, 
obviously you would have to do that. You know, the--I mean, we 
would need to figure out very quickly what the--what the 
goals--goals are. And Brian stressed the importance of the 
goals to determining what sort of an outcome you get.
    It is an aggressive--it is an aggressive schedule. There is 
no----
    Mrs. Roby. Well, and let me just stop you right there 
because I think part of it is we have--we have had posture 
hearings in this committee, and we have had the Joint Chiefs 
here, and we have talked about the $487 billion in cuts that--
that is current law that we are having to work under, but we 
are facing sequestration in January, and I guess my question 
would be, do you think it is wise to move this rapidly and this 
aggressively, to use your word, not knowing what January holds 
when we have got almost a half trillion dollars in cuts now 
under the Budget Control Act, a half trillion cuts in January? 
Wouldn't it be irresponsible to move that quickly without us 
knowing what that looks like?
    Dr. Robyn. We have asked for two rounds, and one--one 
reason is clearly it is--it is aggressive to do a round in 
2013. We think we can do it but it is aggressive. But we have 
asked for two rounds because things are changing. We are not 
necessarily anticipating sequestration but a second round would 
give us an opportunity to adapt and to take into account things 
that happen subsequently.
    Mrs. Roby. Well, it is tremendous--of tremendous concern to 
me, this path, and I would suggest, as I just did, again, that 
under our current fiscal restraints and not knowing what is 
going to happen in the next 10 months, when the Joint Chiefs 
have sat in front of us and we have asked specifically about 
sequestration and they have said, ``We are not even discussing 
sequestration right now,'' then how in the world can we prepare 
for this type of aggressive BRAC under those circumstances? And 
I would just suggest that--that in some respects it would be 
irresponsible to our military, but--but to our military 
families, as well.
    And with that, I will yield back.
    Mr. Forbes. Thank you, Mrs. Roby.
    Mr. Reyes is recognized for 5 minutes.
    Mr. Reyes. Thank you, Mr. Chairman. I am more than a little 
concerned that we are talking about authority for two more BRAC 
rounds when we still have huge issues cleaning up environmental 
sites. I know that in Fort Bliss we have Castner Range, which 
is full of unexploded ordinances. It is an old artillery and 
mortar range.
    So is there--has DOD factored in the remaining issues with 
the past BRACs in terms of moving forward with additional--with 
additional potential closings? Is somebody strategically 
planning through all of that?
    Because I know I am as concerned as other Members about not 
knowing exactly the cost of the last BRAC. We are moving, it 
seems to me, in the dark with this request for two additional 
BRACs without having a clear understanding or idea of how we 
are going to work our way through the results of the last 
BRACs.
    Dr. Robyn. I think that is a--it is a fair question and it 
is one that Congressman Farr asked me yesterday--wouldn't you 
have more credibility if you upped the budget for cleanup of 
past BRAC sites? Let me answer that--let me give you a two-part 
answer.
    First of all, the bases that we would close or realign as 
part of a 2013 round or a 2015 round would likely be in much 
better shape than those that we closed in the 1990s because we 
do a lot better job now of doing cleanup on our active bases. 
So just as a factual matter, we don't face--even in the 2005 
round the cleanup problems were not nearly as great. And you 
can measure that by the fraction of total BRAC costs that go 
for environmental cleanup. They were much lower in the 2005 
round. We are still carrying them out, obviously.
    We have very clear goals and a path to get to remedy in 
place, response complete at--at all of the different categories 
of sites that we have, including the legacy BRAC sites and the 
2005 BRAC sites. So we are not operating in the dark. We have a 
very clear path. We are, you know, in a resource-constrained 
world. We get X amount of money every year. Our total 
environmental budget is about $4 billion and a fraction of that 
goes for environmental cleanup.
    So we are on track to meet goals. Should those goals be 
more aggressive if we are asking for another BRAC round? I 
think that is a fair--I think that is a fair question.
    Mr. Reyes. So just to put things in context, so the--for 
lack of a better word to describe it, the backlog results of 
the last BRACs are--if I understood you correctly, the--you are 
working on it. Is that----
    Dr. Robyn. Yes. You know, I should have those numbers handy 
on how many of those we have--we have----
    Mr. Reyes. That would be helpful----
    Dr. Robyn. Yes. I will get you--I do have those in my 
office.
    Let me just say that the critical thing isn't necessarily 
when the cleanup is completed. It depends on the nature of 
the--the remediation that is required. But a lot of places--for 
McClellan Air Force Base, for example, a 1995 closure, that--
because of the nature of the contamination that cleanup is 
going to go on for a long, long time but McClellan is thriving. 
I mean, it is--they are doing--that is a tremendous reuse 
success story.
    And a lot of other places--once you get the--what is called 
the remedy in place you can have development. And in fact, we 
put at the top of the list those BRAC'd--those base closure 
properties for which there is economic development on track. We 
put those at the top of the list. If a community hasn't figured 
out how they are going to use a piece of property it is lower 
down on the list. So we do rank order in terms of economic 
development potential.
    Mr. Reyes. Well, and I think it would be important to the 
committee if we were to have a way to measure the track record 
of DOD, the impact that it has had on different communities, 
and how that prioritization----
    Mr. Forbes. Dr. Robyn, would you commit----
    Dr. Robyn. Yes. We will----
    Mr. Forbes [continuing]. To get that for the record? Mr. 
Reyes would like to know the answer.
    Dr. Robyn. Absolutely. Yes. We have those handy.
    [The information referred to was not available at the time 
of printing.]
    Mr. Reyes. Very good. Thank you, Mr. Chairman.
    Mr. Forbes. Mr. Schilling is recognized for 5 minutes.
    Mr. Schilling. Thank you, Chairman.
    Thank you all for coming here today. And, you know, one of 
the things that the chairman usually starts out our committee 
meetings with is, ``Are we ready?'' And one of the fears that 
we have up here is that one of our main objectives here is--
constitutionally is to defend the United States of America, 
and--and with all of the cuts happening and--and not having the 
full numbers and knowing where we are headed, it is actually 
quite scary for us here. And like my colleague from Georgia, 
you know, I don't believe that the world is going to get any 
safer tomorrow; I think it is actually, as we watch what is 
going on in Iran and what we are finding even as of today, it 
is quite a hostile situation, I would say, at the least.
    But what I would like to do is start out with Mr. Director, 
if I could, sir. You mention in your testimony that the GAO 
will be reporting on lessons learned from the BRAC of 2005 
later this year, and do you believe, sir, that this report will 
come too late to use its recommendations in the first of the 
two rounds of BRAC, sir?
    Mr. Lepore. Well, I certainly hope it gets here in time to 
be helpful. We are required by the directive--the 2008 Defense 
Authorization Act--to report to you by September 15th, 1 year 
after the end of implementation. In consultation with the 
subcommittee, you all have asked us to report earlier than 
that, and so to try to get it up here in time for the 
conference committee, and--and we are--we have committed to do 
that and so we are going to try--we are going to do our level 
best to get it here in time for your conference.
    Mr. Schilling. That would be great. It is kind of like 
building a house, you know, to have the builders show up and 
they just start building before you have the plans drawn, so 
that would definitely be a good thing.
    In your testimony you state that the Congress codify the 
eight final 2005 BRAC selection criteria--you stated that the 
first--let's see how I--I have got to reread this here. In your 
testimony you state that Congress codify the eight final 2005 
BRAC selection criteria used in the--that BRAC and stated that 
the first four, enhancing military value, were the priority 
criteria. Will these similar criteria likely be used again for 
the proposed two rounds?
    Mr. Lepore. The way the process has worked with the 
military value selection criteria, at least in BRAC 2005, was 
that the Congress directed DOD to propose the selection 
criteria, and they did that. You also directed that it be 
available for public comment. DOD published it in the Federal 
Register, accepted comments, and may have made changes. We 
haven't actually looked at exactly how they tweaked, if they 
were tweaked, after that process.
    But the criteria started with DOD and it was proposed to 
you--you, the Congress. And then the Congress subsequently, in 
authorizing the BRAC round, you all basically put the DOD 
proposal, if you will--I think with some, perhaps some 
changes--but the DOD proposal in statute and directed that the 
first four, known as the military value selection criteria, be 
the primary criteria.
    Number five, which is in the other criteria, or secondary 
criteria, is actually the one that talks about the time between 
which you--you have actually begun the process of implementing 
a recommendation and hit the payback period--you have hit the 
break-even period. But that is actually a secondary criteria.
    Mr. Schilling. Very good.
    And then lastly--I will make this one quick--Mrs. Robyn, in 
your testimony you state that there is too much overhead in 
construction, sustainment, recapitalization, and operation 
costs for the bases which we currently have in the strategic 
force we are planning for. If this is the case then how do we 
rectify not only the remaining cost for the most recent 2005 
BRAC and those previous but also the new cost that the two 
proposed rounds of BRAC will bring on DOD's shrinking budget?
    Dr. Robyn. Sorry. Could you clarify the question, please?
    Mr. Schilling. Yes. Basically what we are trying to figure 
out is, you know, here we have--we started out in 2005; we are 
going to go all the way to 2018 to get this thing paid for and 
we are going to bring on another BRAC. So basically, are we 
going to pay off the previous BRAC before we start to bring 
on--this is kind of like buying a car while you still owe on 
the other one and you can't afford the payments.
    Dr. Robyn. Well, we are reaping savings from the last BRAC 
round, but it--it was an expensive--expensive BRAC round. And 
it was expensive in part because it wasn't focused on just 
eliminating excess capacity. That was an objective but it 
wasn't the major objective. The major objective was 
transformation and jointness.
    So I think it did not get at excess infrastructure. We have 
a certain amount of it now. We are going to have more of it. 
There is no other way to get at that other than BRAC, and it--
inherently it requires some upfront investment.
    I would envision that if we have a 2013 round that it would 
pay back more quickly because it would be focused on going 
after our focus, our desire is to go after--is to reduce 
overhead, so cut where we can achieve savings, more like we did 
in the first four BRAC rounds.
    Mr. Schilling. Very good.
    Thank you all for your time.
    Mr. Forbes. Mr. Rogers is recognized for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    I am mindful of what things were like around here 9 years 
ago when we went into Iraq and Afghanistan, and one of the 
great problems we experienced is our depot system was not 
ready, and it was embarrassing, frankly, and hard to go home 
and explain to family members who had loved ones over there why 
we weren't able to support them in the way they should have 
been supported. Now, it took us about 18 months to get up to 
speed, and what I worry about now as you all talk about this--
this BRAC is us trimming down and not being ready--A, just 
losing sight of the fact we are still in war. We could be in 
Iran in a heartbeat, or somewhere over trying to keep folks off 
Israel or North Korea. I don't want to see us degrade our depot 
infrastructure and lose any core capability that we may need 
soon, and I would like to hear you reassure me that you don't 
think that is a threat.
    And start with you, Mr. Director?
    Mr. Lepore. As I said earlier in my testimony, Congressman 
Rogers, the key for doing a successful BRAC are the choices 
that DOD makes--the goals that they set for the round, the 
selection criteria that they propose and ultimately employ, and 
the nature of those goals and the nature of the--of the 
selection criteria will logically lead to the outcome. And I 
think that is the point I made with respect to BRAC 2005.
    And to the extent that--that DOD's--these hypothetical 
recommendations--we are speaking hypothetically here--to the 
extent that they proposed recommendations that had some impact 
on depot capabilities, your concern could prove to be well-
founded. But it really would depend on the nature of the 
recommendations that DOD would put forward and be based on the 
goals of the round and the nature of the military selection 
criteria.
    Mr. Rogers. General.
    General Bishop. I can offer this, just kind of in the 
broader posture context: I think that you are exactly right. 
There were some challenges in the depot systems, especially in 
those--the period of time you referenced before.
    One of the things the Secretary has talked about is taking 
the excellence of--that we have learned in the last 10 years 
from sometimes very difficult, sometimes very hard-fought 
lessons and make sure we don't lose that, make sure that we 
don't slip back to that level of inefficiencies. And just a 
general comment, I would offer that the logistics enterprise in 
DOD, I would offer that the depot enterprise is considerably 
different today than it was 10 years ago, and----
    Mr. Rogers. And that is what I want to keep. You know, I 
met with General Dunwoody last week about this and she assured 
me that--that she learned her lesson and that she will--even 
though she is retiring, that that department is not going to 
let us get caught like that again.
    But then when I hear this talk it just--it worries me that 
maybe we have--we have got a real short memory. I am very 
apprehensive about this for that reason, but also, I am 
apprehensive about these end strength reductions that are being 
proposed for the same reason. You know, we are liable to be in 
another war in the next 90 days, so----
    Anyway, ma'am, will you tell me--tell me why I am wrong?
    Dr. Robyn. I honestly don't have a--any sense of whether we 
have excess depot capacity. We did in 1995. We closed Kelly and 
McClellan, as you know, because there clearly was excess 
capacity among the five big Air Force depots. We got it down to 
three.
    I just don't know what the situation is today.
    Mr. Rogers. Well, I just hope you all will be mindful that 
we have to maintain a certain core capability at all times, 
whether we are in war or not, because we didn't expect to be in 
Iraq and Afghanistan and all of a sudden in the blink of an eye 
we are in both places. So we have to always be ready.
    Thank you very much for your time.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Mr. Rogers.
    As I mentioned to all of our witnesses, I was going to 
defer my questions till the end and--and I thank you for your 
patience. And I just have a number I would like to go through 
with you and kind of start with what Mr. Loebsack said, and 
that is basically that we need some facts. You know, we might 
not need all the facts but we have got to have some facts, and 
that is what we are trying to get our hands around.
    The other thing is, one of the things that I really 
appreciate about these hearings is yesterday Mr. Lepore was 
kind enough to come meet with me before this, as you were, Dr. 
Robyn and General Bishop, and Mr. Lepore said, ``My opinion 
doesn't matter.'' Well, I quickly told him that was wrong, and 
it is wrong, and here is why: because the great thing about 
these hearings--and we have had this from the Secretary of 
Defense on down--you guys have been authorized to give us your 
opinions as well as, you know, the Department's, and we value 
those opinions.
    And, Dr. Robyn, the only thing that I would get on some of 
the semantics--and I wouldn't dare suggest what you should say 
and what you don't say--but it hits us a little bit odd when we 
hear people come in and say, ``Congress made me do this.'' You 
know, the President proposed these cuts long before Congress 
issued them and the President signed the bill, and the 
President has made very clear if he doesn't like what Congress 
is going to do he is going to go around it, so this is not just 
the Congress imposing these things on us.
    The second thing is, it is a little hollow to many of us 
who watched what happened in the 1990s to be bragging about 
what we did in the 1990s because most of the witnesses we have 
had coming in here have talked about, we don't want to repeat 
that again where we hollowed out the force. When I first came 
in to Congress I remember going out and meeting with our pilots 
on an aircraft carrier and asking them what they needed, and 
they didn't talk about retirement systems or any of the things 
that we--we normally look to--they wanted engines for their 
airplanes. They didn't have enough engines for their airplanes 
to do the training and stuff they have.
    And then the third thing--and I am not sure if it--I think 
it was Mr. Loebsack said but it might have been Mr. Courtney--
but to say that we are getting ready to impose harm on members 
and that that is what is driving us to do a better good, 
believe me--most of the people that sit on this committee are 
looking and thinking that we are imposing harm on the--the 
American people by these force structures that we are having.
    But I want to kind of walk through just to make sure I have 
got a clarity on what some of the facts are, and as I 
understand reading your testimony and hearing you today that--
Mr. Lepore has said the objectives and the goals that we have 
for BRAC will ultimately determine the outcome.
    Fair statement, Brian?
    Mr. Lepore. That is fair, Mr. Chairman.
    Mr. Forbes. Okay.
    If that is true, Dr. Robyn, then as I understand what you 
are saying, the primary goal for this BRAC is that because we 
have this huge reduced force structure that we need to have a 
BRAC because we are going to have excess capability. Is that 
just a fair statement?
    Dr. Robyn. Yes.
    Mr. Forbes. If we didn't have the force structure we 
wouldn't necessarily be coming here asking to do the BRAC.
    Dr. Robyn. I think that is fair. I also said we think we do 
have excess capacity even before----
    Mr. Forbes. But you have had that----
    Dr. Robyn. We have had that for a while.
    Mr. Forbes. I think it would also be fair for those of us 
who feel it is wrong to reduce the force structure the way we 
are doing, we shouldn't be supporting this round of BRAC 
because basically we are tearing up the very ability we would 
have to rebuild that force structure. Fair statement?
    I mean, it is divided in two camps. I mean, if you feel 
this force structure is right, that we should reduce it, you 
ought to go on with the BRAC; if you think this force structure 
is not the right thing to do you ought to oppose the BRAC. 
Fair?
    Dr. Robyn. Well, I think it depends on whether you think 
your views will--will prevail in the----
    Mr. Forbes. No. We are not talking about whether I prevail; 
I am talking about whether I--my position and what I think is 
right.
    Dr. Robyn. I think there is a logical internal coherence to 
that logic.
    Mr. Forbes. Then let me also ask you this: You have a great 
deal of expertise you bring to this from not just your service 
in government but you being a professor at the government--
School of Government at Harvard, and you make this statement, 
``While some may view our request for a round in 2013 as 
aggressive the magnitude of the cuts we are making in force 
structure means we simply can't wait. Leading U.S. corporations 
retain their vitality and market position by being able to 
adapt quickly to changed circumstances and U.S. military is no 
different.'' Fair quote of what you said?
    Dr. Robyn. Yes.
    Mr. Forbes. I take it, then, that it would be bad policy in 
your mind if we did not move forward with a round of BRAC based 
on the fact that we have these force structure changes that are 
going to be taking place over--I guess it is a 5-year period of 
time, or so, that--they are not all going to take place now, 
but over a 5-year period. Is that a fair statement?
    Dr. Robyn. Yes.
    Mr. Forbes. Okay. The reason I ask that----
    Dr. Robyn. There is a trick here.
    [Laughter.]
    Mr. Forbes. There is not always a trick, you know? No, the 
question I want to ask is this: If that is true then what I am 
looking at is how do you know what these force structure 
numbers are? This is kind of what Mrs. Roby was saying, and I 
guess you were given those by looking at the budget over that 
5-year period of time. Is that where they come from, or----
    Dr. Robyn. Well, I think the Department had an extensive, 
lengthy debate, as General Bishop described, to----
    Mr. Forbes. I am going to get to him in a just a second----
    Dr. Robyn. Okay.
    Mr. Forbes [continuing]. On that, but if that is true why 
are we not talking about the amount of force structure that 
would take place with sequestration? That is not 5 years out. 
That is in January. That is the law of the land--President 
signed it. Why aren't you guys coming here and telling us this 
is not going to be just 70,000 people in the Army, but we are 
talking about a half trillion dollars more of force structure 
that we are talking about. Why is there such a silence on that?
    Dr. Robyn. I think that is probably not the appropriate--I 
don't think I am the right person to answer the question, but--
--
    Mr. Forbes. But wouldn't it be bad policy, if it is bad 
policy not to be moving forward on a force structure cuts that 
are going to take place over 5 years shouldn't we be moving 
forward on a force structure that is going to have to take 
place in a few months?
    Dr. Robyn. I think the Secretary has said we will begin 
planning for it in this summer if----
    Mr. Forbes. But help me with this----
    Dr. Robyn [continuing]. If there is not some indication----
    Mr. Forbes. You have indicated that it would be bad policy 
for us not to be planning force structures that are going to 
take place over a 5-year period of time, but do you think it is 
not bad policy if the Secretary is going to wait and start 
planning the force structures that are going to take place just 
months from now?
    Dr. Robyn. We are hoping not to have sequestration.
    Mr. Forbes. But I am hoping not to have these $487 billion 
of cuts, but that doesn't mean we can't plan for them.
    Dr. Robyn. But one is law and the--well, I guess they are--
--
    Mr. Forbes. They are both law.
    Dr. Robyn. Yes. But one is contingent. One is a----
    Mr. Forbes. How is it contingent? I don't understand that.
    Dr. Robyn. Well, the sequestration is if there is not an 
agreement on other----
    Mr. Forbes. There wasn't an agreement. That time--that time 
period has passed.
    Dr. Robyn. I don't think there is a general acceptance that 
sequestration is a fait accompli.
    Mr. Forbes. Well, what do you base that on? I mean, it is--
no, seriously. This is what I have a problem with: I think the 
American people have a right to know, and not just wait until 
after the election, what these cuts are going to mean in 
sequestration as well as the other cuts. But there is this 
deafening silence.
    And you can't just walk back and say, ``Oh, I am hoping 
that won't happen.''
    Dr. Robyn. I believe--when we were asked this question--my 
colleagues and I--at a--service counterparts--yesterday at a 
hearing some of them offered up things that the chiefs have 
said on record. I am not going to----
    Mr. Forbes. But as the person coming here and telling us 
what you are looking for in terms of facilities, are you 
telling us that you don't have any idea what those potential 
cuts could be in January?
    Dr. Robyn. There will be an impact on facilities, to be 
sure, but that is, I think, a--that is a second-order 
calculation once you have a sense of what the magnitude of the 
cuts will be.
    Mr. Forbes. But it doesn't bother you as the person in 
charge of those facilities? I mean, you know, do you see the 
conflict that we have here when you come in and----
    Dr. Robyn. Well, to me, asking for two rounds is consistent 
with that. You know, I can't say we are--we are asking for two 
rounds because we think we will get sequestration; we are 
hoping not to. But I think----
    Mr. Forbes. Okay. Let me ask you this question, if you 
don't mind, then: You talk about the fact--and you mentioned 
70,000-some in the Army, and that is going to mean we have 
excess capacity--but the Chief of Staff of the Army, General 
Odierno, testified, he said, I don't think you will see a big 
installation being asked to close; we think we have the right 
footprint. You also heard just last week before this committee 
the Commandant of the Marine Corps, General Amos, indicated, my 
sense is we are pretty much there; we are pretty lean.
    Were they wrong?
    Dr. Robyn. I have given a lot of thought to those--those 
statements. I work for the Secretary of Defense. Let me say 
that the Secretary of Defense is--very much believes that we 
need another--another BRAC round.
    Mr. Forbes. I understand. But you are coming back to my 
first part about we need a little facts--you know, just some 
facts. You can't just walk in and say, ``We need it,'' but not 
give us any facts.
    And I have got the Chief of Staff that is coming here--of 
the Army--who is saying, ``No, no. We are pretty much there. We 
are not going to--we don't need all these closures.'' I have 
got the Commandant of the Marine Corps saying, ``No, no. We are 
pretty much there.'' And then I have got you coming in here and 
saying, ``Oh, no, we have got all these cuts--we have got to 
cut these facilities.''
    Help me with why you are right and they are wrong.
    Dr. Robyn. When he testified last week before HAC MILCON 
[U.S. House Committee on Appropriations Subcommittee on 
Military Construction, Veterans Affairs, and Related Agencies] 
General Odierno said he fully supported the Department's 
request for another--another BRAC round, and my colleague----
    Mr. Forbes. I don't disagree with that. They always come in 
here--you know, I ask Admiral Mullen--he came in here and he 
said he was supporting the administration so I said, ``Admiral, 
in the whole time you have been here have you ever not 
supported what they did?'' And he said no.
    I mean, so, we--I understand they are going to support that 
but--but we have to make an independent calculus that the facts 
justify that. Was he factually correct or was--were they 
factually wrong in their testimony?
    Dr. Robyn. I don't want to second guess the--the chief of 
the Army. That is not a good--a good career move.
    Mr. Forbes. So then would we say that he was correct?
    Dr. Robyn. I think the Army is still digesting the 2005 
round, number one. It was huge for the Army and it--and as we 
discussed earlier, the implementation was pushed out and so 
they are still--I mean, they are still dealing with that.
    Mr. Forbes. Do you at least appreciate the conflict we have 
between that testimony and your testimony?
    Dr. Robyn. No, I do. I do. But I think it is--I also--I 
think it is not always easy to--to say, ``We need to close 
bases.'' You alienate----
    Mr. Forbes. Oh, I know it is not easy, but I mean, this is 
the Chief of Staff of the Army. He didn't mind going down and 
shutting down the Joint Forces Command, you know, at all. I 
mean, that wasn't hard. He is a pretty tough guy. You know, I 
don't--I don't think he would come in here because it was hard 
and, you know, not--not do it.
    General Bishop, you have got a very impressive resume, and 
one of the things that--that I look at here is you were the 
Vice Director for Operations, Plans, Logistics and Engineering, 
the United States Joint Forces Command. You are responsible for 
the force structure issues, providing oversight for 
deployment--you have looked at numbers, and people, and where 
we have deployed them.
    You have heard a lot of concerns up here about the world 
situation right now, and we are just getting things in on our 
BlackBerry right now where your boss has said that they are 
planning at least potential possibilities for strikes against 
Iran. You have probably seen that, today, coming out in the 
news.
    As you look at that, General--and I want to ask you, again, 
what I said earlier, your personal opinion for all the 
logistics and that--with that even on the planning prospect, 
with the situations we are seeing in the world today, do you 
think it is wise from a strategic point of view--not from a 
budgetary point--a strategic point of view, to be making the 
kind of drastic structure reductions that we are making?
    General Bishop. See if I can--I can best--best answer your 
question. I think it goes back to context. We have had two 
hard-fought, long-term engagements--many, many forces on the 
ground and in the air in Iraq and Afghanistan over these last 
10 years.
    As we close down our operations in Iraq, or have closed 
down our operations in Iraq and we draw down our 33,000 this 
year in Afghanistan we are--I believe the Department is trying 
to position themselves to deal with the global threats in a 
reasonable and appropriate level. There is certainly risk in 
any strategy that arises. There were risks in former 
strategies; there are certainly risks in this strategy, which 
have been addressed and viewed holistically by the Secretary 
and the chairman.
    But as we have looked at the strategy we put the strategy 
together with that careful look and that context, but clearly, 
you know, in law we have a reduction of $487 billion.
    Mr. Forbes. And that is why I ask, outside of the $487 
billion, if you weren't looking at those--and I realize, you 
play the cards that you are dealt. I am talking about, we don't 
look at those cards; we look at what we need to do to defend 
the country. If we have got to go back and change the $487 we 
have got to change it; if we have got to change sequestration 
we have got to change it.
    I am talking about your personal look-down as you have done 
this logistics for our force structure. You are looking at a 
situation right now with all the contingencies we see in the 
world where we see right now, news today, the Secretary of 
Defense says that they are planning potential strikes against 
Iran--just doing the planning process. Would you recommend from 
a strategic point of view the size of the force structure 
reductions that we are having outside of budgetary restraints 
that were forcing us to do that?
    General Bishop. In my view, Mr. Chairman, I think the 
strategy makes sense. I think the force posture adjustments 
along with the strategy make sense. I think it is a reasonable 
risk assessment.
    Anybody in uniform would probably say we would always 
prefer to have more, but there is--as we have looked at this we 
have really carefully looked at it, and I want to emphasize the 
Secretary, all the chiefs--service chiefs--the chairman 
himself, and senior people in OSD [Office of the Secretary of 
Defense], throughout the period of time this strategy was put 
together, spent a tremendous amount of time looking at this and 
looking at it very closely.
    But we clearly have to balance, you know, as you said, the 
cards that we are dealt, as well, and we do have the reduction 
of dollars, and we do have a drawdown of two wars. And it is in 
that reality, I think, the strategy, in fact, does make sense.
    Mr. Forbes. If you are looking at the fact, as I understand 
it now, that we are making an assessment of our overseas force 
structure, does it really make sense to initiate a round of 
BRAC if the Department is still in the process of assessing 
what we are going to do with our overseas force structure 
before that is done?
    General Bishop. I would say in many ways that our service 
chiefs, our combatant commanders have done an initial round 
of--of carefully viewing how they want to see the posture 
change. We rely on very, very strong partnerships across the 
globe. Part of the strategy is to strengthen those 
partnerships. We talked earlier about the strategy being 
about--in some ways about low costs, small footprints.
    Many of the members here today, they come from states that 
participated in the Partnership for Peace program, which has 
been tremendously successful throughout Europe in developing 
capabilities it didn't have and wouldn't have served with us, 
and some of those states--some of those countries have, in 
fact, served side by side the United States military in Iraq 
and Afghanistan.
    So I think it is all those things--the preserving--
preserving the partnership development--in fact, enhancing 
that. We need to shift how we are doing our engagement to some 
degree as we shift away from these two wars, sir.
    Mr. Forbes. But as we are looking at all of those 
assessments shouldn't we do the assessment before we start a 
round of BRAC to see what we are going to be closing here?
    General Bishop. Perhaps I didn't answer your question well 
before. I am going to avoid the--the BRAC question; I am going 
to defer that to my colleague to the left here.
    But I would offer to you that the service chiefs, the 
chairman, and the Secretary, you know, have, in fact, done a--
as they were putting the strategy together did very much--very 
closely look at that.
    Dr. Robyn. I would say, to the contrary, we would like to 
do the two in tandem. We would like to be reviewing our 
domestic bases at the same time that we are doing our--our look 
at foreign consolidation, and the reason is it gives us more, 
in thinking about where to put troops as they return we can be 
more efficient and more creative if we have the tool of BRAC so 
that we are not just putting people where we happen to have 
capacity; we can move--move people around.
    We did that in 2004 and 2005. We had the luxury of being 
able to do the foreign review at the same time as the domestic. 
We would ideally like--like to do them in tandem again.
    Mr. Forbes. One last question--Mr. Courtney has a couple 
questions that he would like to follow up with--as I understand 
the sequencing of the BRAC process, the Secretary of Defense 
has to give a certification that a BRAC is needed and then the 
cost saving--that there is going to be cost savings that he is 
going to guarantee, and he certifies to that. Then after that 
there is this lengthy process where the Department pulls 
together all of its recommendations, and then the 
recommendations are given to the commission, and then the 
commission makes the recommendations to Congress, and then they 
pass it or not, and President decides to sign it.
    How can the Secretary--am I wrong? Correct me, please.
    Dr. Robyn. Goes to the President before it goes to 
Congress.
    Mr. Forbes. And then it comes back to Congress.
    Dr. Robyn. Right.
    Mr. Forbes. How does the Secretary accurately certify that 
he knows there is going to be cost savings before he has even 
had the recommendations from the Department, much less from the 
BRAC commission?
    Dr. Robyn. I think the Secretary's certification does 
reflect a certain amount of internal analysis. I am not----
    Mr. Forbes. Can you get with your folks--have you all--you 
know, because I just want to get the facts right.
    Dr. Robyn. There are two pieces that--of analysis on which 
he draws. One is a 20-year force structure plan developed by 
the Joint Chiefs of Staff, and then the other is an inventory 
of installation----
    Mr. Forbes. And I understand that.
    Dr. Robyn [continuing]. Capacity and capability----
    Mr. Forbes. But I want to come back--this is the 
Secretary's certification. This kicks it all off. He has got to 
give this to Congress.
    This says he is guaranteeing--certifying, according to the 
language--and, Brian, you correct me if I am wrong on the 
language here--it says he is certifying that a round is 
necessary, and then he is also certifying that it is going to 
result in annual net savings for each of the military 
departments. And correct me, guys, if that is not a part of--
Brian, is that a part of the process?
    Mr. Lepore. Yes, that is correct, Mr. Chairman.
    Mr. Forbes. And it is my understanding that this comes 
before the recommendations.
    Mr. Lepore. It is our understanding that the certification 
essentially kicks off the process.
    Mr. Forbes. Right.
    Mr. Lepore. It is that certification that the Secretary 
says, ``I need to do this because I have got excess capacity; I 
want to close bases.''
    Mr. Forbes. And he certifies to say that there is going to 
be----
    Mr. Lepore. And he certifies the savings, and that is in 
the statute, Mr. Chairman.
    Mr. Forbes. Yes. And the reason I ask is because that is 
what, in fact, happened. He made that certification in here, he 
gave this to Congress, but--but the two questions I would have 
for you--the first one is, how in the world do you know what 
the--that you are going to definitely have savings before you 
even know what the recommendations are?
    Dr. Robyn. Well, I don't think we--we don't even ask for 
the authority to do a BRAC round until we think there will be 
savings, so I think----
    Mr. Forbes. That is not what he is saying here. I mean, 
when I get something that says I certify something that is more 
than ``I think''--you know, that is--I mean, that comes back to 
what you heard here about the audits and all that--and I 
realize this is not about audits. But what I am saying is when 
we see something as Congress--this is what Mr. Courtney has 
been saying, Mr.--everybody up here has been saying--the fact, 
some--it is the Secretary's certification. That is the name----
    Dr. Robyn. Right.
    Mr. Forbes. This is what he files. He signs this.
    This looks to us--and maybe we shouldn't be trusting this. 
We are not trusting it as much anymore, but--you know, I am 
looking at this and I am saying, well, somebody has looked at 
this and--and they are certifying that this is true.
    Dr. Robyn. I just got a note saying--I mean, you have a 20-
year force structure plan developed by the Joint Chiefs and you 
have a comprehensive installation inventory. I mean, that is 
the basis for----
    Mr. Forbes. Well, first of all, the 20-year plan--the one 
thing I do agree with the Department on, you can't do that. 
That is fantasy. I mean, you know, to do 20 years. You might do 
5 years; you can't do 20 years. And that is what the Secretary 
has testified to, and everybody else. That is not what I am 
looking at.
    I am looking at some point in time it would make sense to 
me that the recommendations would determine--what if they come 
back and say, after looking at this objectively, which is what 
we are--we shouldn't make--we shouldn't close these facilities; 
we need them; they are too important. I shouldn't shut down Mr. 
Courtney's facility, or I shouldn't shut down anything else.
    How can he certify that there would be savings if he 
doesn't even know what the recommendations are?
    Dr. Robyn. Well, we clearly won't--wouldn't put forward 
recommendations that we didn't think would--would make----
    Mr. Forbes. But you don't know what--are you telling me 
that you know before you start this process what the 
recommendations are going to be?
    Dr. Robyn. No. No.
    Mr. Forbes. Well, if you don't do that, and even if you 
took your recommendations----
    Dr. Robyn. That is the later. No, you said what if you find 
out of your analysis----
    Mr. Forbes. No, no. I am aware of that. But what I am 
saying is, even if you make recommendations the BRAC commission 
doesn't have to take any of those----
    Dr. Robyn. Right.
    Mr. Forbes. So how do you know to certify something before 
you even know the recommendations that there is going to be net 
savings?
    Dr. Robyn. I mean, it is comparison of needed capability 
and--and infrastructure, you know? I mean, that is----
    Mr. Forbes. Brian, help me with this one. How would you--I 
mean, from the GAO's point--how could you possibly give a 
certification like this if you don't even know what the 
recommendations are?
    Mr. Lepore. Well, let me try to answer your question this 
way: One of the things that we look at in GAO when we look at 
things like assertions that something is going to happen or 
something has happened is we like to see some evidence that 
says that whatever the nature of this assertion is, there is 
some fact-based reason why the individual made that. One of the 
things that struck us about the sequencing is that the 
certification, as we understand it, that you are referring to, 
Mr. Chairman, occurs at the point where--it effectively kicks--
kicks off the process. I mean, that is what the--what the 
certification is for.
    So I think what we--if we were going to look at that and--
and we are--we--as you know, under our lessons learned report 
we are looking at the sequencing of the whole process, quite 
frankly. One of the questions I think we would certainly ask 
is, is the order of the steps the right order, might be a way 
to say it.
    Mr. Forbes. Would you at least agree with me that it would 
be impossible to know whether you had--were going to have net 
annual savings if you didn't know what the ultimate 
recommendations were going to be from the commission?
    Mr. Lepore. I think it is really hard to know where you are 
going to end up before you have started.
    Mr. Forbes. And with that being said, the Secretary does 
give the certification. Can you tell me, if he is wrong, to the 
best of your knowledge, what is the penalty for that?
    Mr. Lepore. To the best of my knowledge, there is no real 
sort of legal penalty. I think one of the things that any 
assertion that any Federal official makes where we can't find 
evidence to support it--and I don't know that that is the case 
here--but where we cannot find evidence to support it, it 
does--it would raise questions in my mind as an auditor whether 
I would want to trust that kind of an assertion or--or a 
certification the next time.
    Mr. Forbes. And I am not just catching you off guard on 
that question. I have asked you--told you I was going to ask 
you that, and you have tried to inquire with counsel and all, 
as to whether or not there were any penalties, and you haven't 
been able to find any.
    Mr. Lepore. That is what our general counsel tells me, that 
there--there is no real--no real penalty. And as you know, Mr. 
Chairman, under the lessons learned report we are going to go 
ahead and look at that sequencing and see whether there may be 
things that we could suggest to you as you consider this 
question of another round, and if so, whether there are 
appropriate changes you may want to consider.
    Mr. Forbes. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And I just have a 
couple sort of follow-up questions.
    You know, this question about end strength reductions and 
how that fits into the need for a BRAC, you know, I thought it 
was kind of interesting that when Secretary Panetta announced 
the budget back in January, you know, one of the things that he 
was very, I think, adamant about insisting on was that the 
reduction of end strength is not a hollowing out of the force, 
that we are not sort of turning the clock back to the 1990s, 
that in fact, the--the troop levels are going to be higher 
than--in 2017 than where we were when 9/11 occurred; and in 
fact, in the--in the case of the Marines they are going to be 
higher than they--they were in 2005 when the last BRAC round 
was completed.
    And frankly, I think that is one of the reasons why General 
Odierno--I can't read his mind, but it would seem logical that, 
you know, the fractional reductions of--of troop levels, you 
know, really would make you conclude that, well, yes, you know, 
the footprint isn't really that far off in terms of what we 
need. And really going through all the branches, I mean, the 
proposal in the budget over 5 years in terms of reduction of 
end strength is actually quite minimal, and--but again--and he 
was, you know, clear that he wanted to reassure people that we 
weren't, you know, sort of again just kind of, you know, 
surrendering the country, or however you want to, you know, 
phrase it.
    But again, the flip side of that is, well, then why are you 
insisting on a BRAC? I mean, the total number of folks in 
uniform is really not that much different than it was in 2005.
    So, you know, I--for the record, I think it is important to 
reiterate that point, because again, some of us who really are 
not happy about this BRAC proposal are not necessarily 
adamantly opposed to other components of his plan that he--that 
he released.
    But frankly, that is the mystery here is that, you know, a 
proposal like BRAC, which in January and then as of today we 
still have been told zero is the net savings--we have given 
nothing in terms of how this is supposed to fit within the 
Budget Control Act. I mean, the fact is, zero minus zero is 
zero. I mean, if we reject this proposal it--it has--it has no 
impact in terms of the budget document that was submitted back 
in January.
    And again, I--there is no way, I believe, Dr. Robyn, that 
you can present us with, you know, an accurate BRAC proposal 
that doesn't, in fact, tip the--the balance in terms of 
exceeding the spending caps in the Budget Control Act. I mean, 
General Dempsey and Secretary Panetta, when they came before 
this committee, were very clear about, you know, if we sort of 
mess with this package, you know, it has all been sort of 
carefully crafted to sort of hit that number very precisely. 
Well, you know, if you are going to come up with a--with an 
honest or accurate proposal about how to do this we are going 
to have to spend money, and that has got to come out of some 
other part of the plan that the Secretary presented to this 
committee.
    And frankly, you, in my opinion, have a high burden of 
proof to overcome for many of us that this is really, actually, 
comports with the Budget Control Act.
    The other point I just want to make, in your opening 
comment you talked about the 300,000 buildings that the 
Pentagon has, and there is no question that within that 
inventory there have got to be some structures that are excess, 
and frankly, probably a drain in terms of energy costs, et 
cetera. But the fact is, you don't need a BRAC to take down a 
building. I mean, we had--we had a wrecking ball down in 
Groton, you know, 2 or 3 years ago that took down World War II 
dormitories that frankly were an eyesore and a drain in terms 
of the operating budget of the base that was there.
    And so, you know, I would just sort of say that, I mean, 
yes, there is 300,000 buildings; yes, there is probably excess 
there. But that is not what we are being asked to do. This 
isn't a building realignment commission request; this is a base 
realignment request. And that is a far different issue than 
just excess buildings.
    And I think, again, it is important for the record that 
that be made clear, is that there is nothing that really 
prohibits the Department from going through and--and 
eliminating structures that make no sense in terms of their 
operating overhead.
    And with that, Mr. Chairman, I yield back.
    Mr. Forbes. Thank you, Mr. Courtney.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Just very quickly, if Congress were to consider another 
round of BRAC is there any way we can ensure that--or you can 
assure Congress that a quicker payback might be provided, given 
the concern that so many Members are expressing to you? And 
what would be the limiting factors to our ability to get that 
kind of a quick payback?
    Dr. Robyn. I think every--I mean, every--the first four 
rounds of BRAC paid--paid off relatively quickly. We do BRAC to 
save money. The 2005 round is the outlier.
    Just as the 2005 round reflected the needs of the time, 
2013 round would reflect the needs of the current time, which 
are to eliminate excess overhead in order to put those 
resources back into enhancing other--other capabilities. So, 
you know, is there a way to--you know, there may be a way for 
Congress to, you know, exclude certain things, but I--you know, 
I think that is what we are--we are focused on trying to get 
rid of capacity that we don't need so that we can put the 
resources elsewhere.
    Mr. Reyes. So you are telling us that for these two that 
have been requested there would be a quick----
    Dr. Robyn. Well, I think they are more--they are likely to 
look like the first four rounds, because that is the 
environment that we are in. We are in an environment where we 
need to reduce--create and generate savings, reduce excess 
capacity and the resources that that consumes in order to put 
those resources into enhancing capabilities.
    Mr. Reyes. And there would be no difference between 
international presence versus domestic, or would there?
    Dr. Robyn. A difference in what----
    Mr. Reyes. In the payback.
    Dr. Robyn. Well, I think with the--when we close foreign--
you are saying what the--the payback between the--I was 
distinguishing between the 2005 round of domestic closures and 
the----
    Mr. Reyes. Well, in terms of the savings, I mean, one of 
the concerns that you have heard Members express has been----
    Dr. Robyn. Right.
    Mr. Reyes [continuing]. There is a BRAC and then there--it 
just lingers, and lingers, and lingers, and----
    Dr. Robyn. Right.
    Mr. Reyes [continuing]. For the 2005 we were told it is 
going to be some time before it even breaks even, and we are 
not sure----
    Dr. Robyn. Yes. Again, I feel like I am--the 2005 round was 
different than all the other rounds. You know, I think we can 
debate whether one should use BRAC for transformation. I think 
the 2005 round did fabulous things, but I think one can have a 
debate about is that--is that a good use--is that a good use of 
BRAC? It worked, but I think we got a lot out of it.
    Is that what we--is that what we need to do in 2013 and 
2015? No. That is not the--the agenda is not to do 
transformation. More jointness, yes, I think, but we are not 
trying to do the kinds of transformational changes that the 
Army did, which reflected the needs of the time and the urgency 
of the war.
    Mr. Reyes. That is it, Mr. Chairman. Thank you for 
holding----
    Mr. Forbes. Thank you, Mr. Reyes.
    I want to thank all of you for your patience, and I am 
going to have one last question.
    But I wanted to also tell you, Dr. Robyn, we just don't buy 
any more of this stuff of we are--we are taking excess 
resources so we can enhance other capabilities when Secretary 
Gates came out and announced he was going to shut down the 
Joint Forces Command in his press conference that day, he said, 
because this is going to be great. We are going to put this in 
shipbuilding; we are going to put this in ship repair. That 
lasted about 4 months before all that money was gone, you know, 
out of there.
    And so I think most of us understand here this isn't 
because we are taking this out and putting it somewhere else. 
It is going out of the defense budget completely.
    The other thing is, as Mr. Courtney pointed out, a lot of 
things you can do outside of BRAC. You can knock down a lot of 
these buildings and things----
    Dr. Robyn. Sure. Oh, yes. I didn't mean----
    Mr. Forbes. I mean, we are only talking about for BRAC, 
when you have 300 civilians or more that you are relocating.
    And the final question I would have for you, because as I 
heard Mr. Lepore's testimony--and, Mr. Lepore, I would like for 
you to correct me if I am wrong on your testimony, but you said 
basically that when you do BRAC the goals that are set kind of 
drive the selection criteria, and the selection criteria, with 
that, will drive the outcome. Correct me on what part of that I 
was wrong on.
    Mr. Lepore. I think you are close. What I think I said was 
that the goals help to drive where the Department hopes to end 
up and the selection criteria helps to define how they will get 
there, is a way to think about----
    Mr. Forbes. Okay. They work together. Good.
    Then, Dr. Robyn, last question I would have for you: Can 
you state for this committee the specific goals that the 
Department would have for this round of BRAC so we can at least 
have some forecast of where you might end up, and how do you 
think the selection criteria will help you reach those goals?
    Brian, is that a fair statement?
    Mr. Lepore. Yes, it is, Mr. Chairman.
    Mr. Forbes. Okay.
    Dr. Robyn. It would be presumptuous of me to say what the 
goals for the--for the round are. I think that needs to be an 
internal deliberation. I am giving you a sense of--that the 
focus is going to be much more on getting rid of excess 
capacity than on transformation.
    In terms of how the criteria relate, the criteria are in 
statute. You will see when you get our bill within the week 
that they are--they are set out. We preserved the same ones 
that were used in 2005, and I believe those were put in statute 
in 2005 in response to congressional desire, and we had a set 
of criteria and Congress made some changes, and it--so we--we 
have preserved what came out of the--or, I am sorry, it was 
2001 legislation.
    Mr. Forbes. Well, let me just tell all of you, I think you 
can tell by this subcommittee that they are going to have to 
have a lot more facts to--before they are going to bite off on 
this--another round of BRAC. And specifically, one thing they 
are not going to do is pass it so we can find out what is in 
it, you know, so we are going to need to know those goals and 
we are going to need to know some of the specifics in doing it.
    But I promised all three of you if you had anything else 
you want to say or anything you want to clarify on any of the 
questions that came up that you didn't get all the time--Dr. 
Robyn, anything else?
    Dr. Robyn. No.
    Mr. Forbes. Good. And if you don't mind, if you could get 
Mr. Reyes----
    Dr. Robyn. Yes. Yes, I will.
    Mr. Forbes [continuing]. Information back.
    General, thank you for your service. Anything else that we 
have left out that you would like to----
    General Bishop. No, Mr. Chairman. Thank you.
    Mr. Forbes. And, Mr. Lepore, anything that we have omitted 
that you feel is appropriate?
    Mr. Lepore. No. And I appreciate the opportunity to be here 
once again.
    Mr. Forbes. Listen, we want to thank you all for your 
service. Thank you so much for your patience and being here 
with us.
    And, Mr. Reyes, if you have no additional questions, we are 
adjourned.
    [Whereupon, at 3:02 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 8, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 8, 2012

=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 8, 2012

=======================================================================

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 8, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. Has the Secretary of Defense assessed whether excess 
infrastructure exists in the Department? What empirical support can the 
Department provide to support the BRAC request?
    Dr. Robyn. [The information referred to was not available at the 
time of printing.]
    Mr. Forbes. Congress requested an independent overseas basing 
assessment in the National Defense Authorization Act for Fiscal Year 
2012. As a foundational document, shouldn't the Department complete the 
overseas basing assessment before a BRAC authorization is provided?
    Dr. Robyn. Even a significant reduction of our footprint overseas 
will not achieve the needed cuts to overall infrastructure. To 
eliminate the excess capacity that results from force structure 
reductions, the Department will need to close and realign installations 
in the United States as well as overseas--hence our request for a 
parallel, BRAC process. It makes sense to look at our domestic and 
overseas bases at the same time so that the two reviews can inform one 
another. The Department took this approach in 2004-2005, and it would 
be no less useful now given the major strategic realignment underway.
    Mr. Forbes. Considering BRAC 2005 will not realize a payback on the 
$35 billion investment until 2018, 13 years after the start of the 
initial investment, can the Nation afford to exacerbate a potential 
sequestration deficit in 10 years by moving forward with another round 
of BRAC?
    Dr. Robyn. Of all the efficiency measures that the Department has 
undertaken over the years, BRAC is perhaps the most successful and 
significant. The first four rounds of BRAC generated $8 billion in 
annual, recurring savings; total savings from those four rounds is $100 
billion. The comparable figure for BRAC 2005 is $4 billion. The annual 
recurring savings for all five rounds ($12 billion) represents the 
additional costs that the Department would incur every year for base 
operating support, personnel and leasing costs had we not had BRAC. It 
represents what the Department would spend to buy 300 Apache attack 
helicopters, 124 F/A-18E/F Super Hornets, or four Virginia class 
submarines.
    Because BRAC is a key priority, the Department will apply the 
resources necessary to support both a robust and thorough BRAC analysis 
and an efficient and effective implementation process. BRAC begins 
generating savings almost immediately, and those savings will partially 
offset its initial costs. BRAC will generate recurring savings far in 
excess of the upfront investment.
    The 2005 round took place during a period of growth in the 
military, and it reflected the goals and needs of that time--aligning 
our infrastructure with our military strategy so as to maximize war 
fighting capacity and efficiency. These efforts contributed 
significantly to the Department's effectiveness; but they necessarily 
required substantial investments. Because the focus of the BRAC 2005 
round was not on saving money and space, it is a poor gauge of the 
savings that the Department can achieve through another BRAC round. The 
prior BRAC rounds--which reduced capacity and paid off in a relatively 
few years--represent a better gauge of such costs and savings. In those 
rounds one-time costs range from $2.7 billion to $6.6 billion and the 
annual recurring savings ranged from $1 billion to $2.7 billion.
    Mr. Forbes. With the exception of the Air Force, the other Service 
Chiefs have generally indicated that they do not anticipate any major 
reductions as a result of a future BRAC authorization. Why would the 
Administration request broad authority for an additional BRAC 
authorization when significant excess infrastructure does not appear to 
exist across the Department?
    Dr. Robyn. [The information referred to was not available at the 
time of printing.]
    Mr. Forbes. With greater transparency, the BRAC implementation 
costs have increased. In retrospect what additional methods should the 
BRAC process have built-in to increase cost accuracy?
    Dr. Robyn. The costs of the BRAC 2005 round increased for a number 
of reasons, but a change in the degree of transparency was not among 
them. By way of background, BRAC 2005 was by far the largest round 
undertaken by the Department. The BRAC Commission made 222 
recommendations, resulting in 24 major closures, 24 major realignments 
and 765 lesser actions. These actions affected some 125,000 military 
personnel at more than 800 locations across the United States. The cost 
of implementation totaled $35.1 billion, including $24.7 billion for 
military construction and another $10.4 billion to move personnel and 
equipment, outfit facilities and carry out environmental clean-up. 
Although the implementation cost far exceeded that of any prior round, 
so too do the savings ($4 billion a year).
    The cost of the 2005 round was far more than expected: the up-front 
investment costs ($35.1 billion) exceeded the Department's original 
estimate by fully 67 percent. However, that increase was largely due to 
deliberate decisions by the Department (principally the Army) to expand 
the originally envisioned scope of construction and recapitalization--
either to address deficiencies in our enduring facilities or to expand 
the capabilities they provide. In one case--namely, the reconfiguration 
of medical facilities in the National Capital Region--Congress added 
requirements that, while meritorious, increased the cost of 
construction and outfitting by $1 billion. In sum, BRAC 2005 served as 
a needed engine of recapitalization for our enduring military 
facilities (military construction accounted for 70 percent of BRAC 2005 
up-front investment costs in contrast to only 33 percent of those costs 
in prior rounds).
    There are two other significant and related reasons for the 
increase in projected implementation costs. The Department decided to 
delay the implementation of BRAC 2005 because of competing budgetary 
priorities (in prior rounds, the implementation had always occurred 
early in the six-year window). That decision was expensive in and of 
itself because delay adds to the cost of inflation. In addition, delay 
meant that many of the large military construction contracts were 
competed in 2007 and early 2008, just when construction costs spiked 
because of the rise in construction activity following Hurricane 
Katrina and because of an increase in the global demand for critical 
construction materials such as steel and concrete.
    Mr. Forbes. According to GAO and DOD the 2005 BRAC round is 
supposed to bring about military transformation and increased 
jointness. How are you seeing these results?
    Dr. Robyn. Of all the efficiency measures that the Department has 
undertaken over the years, BRAC is perhaps the most successful and 
significant. BRAC 2005 enabled the Department to reset its 
infrastructure to accommodate the return of forces from Europe and 
Korea; restructure its medical platforms; markedly increase joint 
basing and other cross-Service efforts; accommodate the Army's 
modularization; and revitalize the Army's reserve and guard 
infrastructure. These efforts were needed, and they have contributed 
significantly to the Department's effectiveness.
    One of the singular achievements of BRAC 2005 has been the increase 
in jointness. The examples range from our Joint Bases themselves to the 
various consolidation and co-location efforts. Under BRAC 2005, 26 
installations were consolidated into 12 Joint Bases. The Department 
felt that joint operation would enhance the military value of the 
installations, making them a DOD-wide asset. Joint Bases represent a 
fundamental change in our approach to installation management. Although 
these bases have been operating for only a short time, we are already 
beginning to see the expected economies of scale from consolidation. 
Perhaps even more important, joint bases are proving to be incubators 
for problem-solving and innovation: faced with inconsistent Service 
rules and requirements, Joint Base commanders are implementing new, 
cross-cutting business processes out of necessity.
    Mr. Forbes. Is BRAC an appropriate vehicle for military 
transformation?
    Dr. Robyn. [The information referred to was not available at the 
time of printing.]
    Mr. Forbes. The 2006 International Agreement between the United 
States and the Government of Japan requires that the Government of 
Japan make ``tangible progress'' on the construction of a Marine Corps 
Air Station Futenma replacement facility in northern Okinawa. In the 
FY12 NDAA, this progress was stipulated as an element that needed to be 
met before moving forward on additional construction on Guam. As a 
result of discussions with the Government of Japan in January 2012, the 
Administration has decided to drop the ``tangible progress'' 
requirement required in the 2006 agreement.
    a. What is the impact associated with not obtaining ``tangible 
progress'' at the Futenma replacement facility and moving forward with 
the Guam realignment process?
    b. Will the removal of ``tangible progress'' influence affect 
progress in developing a Futenma Replacement Facility that the Third 
Marine Expeditionary Force considers critical to current and future 
operations?
    c. Has the readiness posture of PACOM been negatively affected by 
competing priorities? If so, what would PACOM need to better resource 
readiness requirements?
    General Bishop. Strategically, there is a sound basis for 
establishing an operational Marine presence on Guam, and we will start 
moving Marines to Guam at the first opportunity. By delinking tangible 
progress on the Futenma Replacement Facility (FRF) from the movement of 
Marines to Guam, both of these important initiatives can proceed 
independently, as circumstances permit.
    Both the U.S. and Japanese governments have reaffirmed on more than 
one occasion that the FRF is the only operationally and politically 
viable alternative. Since Japan faces a domestic political imperative 
to reduce the U.S. military footprint in Futenma, Japan's incentive to 
develop the FRF remains. Until the FRF is constructed, U.S. Marine 
Corps aviation will continue to operate out of the Marine Corps Air 
Station Futenma.
    The readiness posture of U.S. Pacific Command has been enhanced 
under the new defense strategy. We have reviewed our strategic defense 
posture in Asia--beginning with the 2010 Quadrennial Defense Review--in 
order to achieve a more geographically distributed, operationally 
resilient, and politically sustainable force structure in the region.
    Mr. Forbes. How will the decision to withdraw two BCTs from Europe 
impact our ability to meet operational and training requirements?
    General Bishop. The two Brigade Combat Teams (BCTs) remaining in 
Europe will meet adequately our operational and training requirements. 
To maintain the interoperability gains of the last decade, we also 
believe that we need to assist the NATO Response Force (NRF) 
strategically. To this end, we will be allocating a CONUS-based BCT and 
brigade headquarters staff support to the NRF. This allocation will 
provide approximately two short-duration training opportunities per 
year. We believe this will best support NATO and help build critical 
partner capacity.
    Mr. Forbes. If the number of U.S. forces stationed in EUCOM is 
reduced, will EUCOM still maintain building partnership capacity 
mission in Europe and still provide substantial rotational troops to an 
overseas contingency operation? At what troop level does conducting 
both of these missions become impossible?
    General Bishop. U.S. European Command (USEUCOM) assesses that the 
new force level following planned reductions is sufficient for assigned 
missions, including building partner capacity and having the 
flexibility to conduct out-of-area contingency operations if necessary.
    Mr. Forbes. What is your estimate on the cost and savings 
associated with BRAC 2005?
    Mr. Lepore. DOD's fiscal year 2011 BRAC budget submission shows 
that the cost to implement the BRAC 2005 recommendations was about 
$35.1 billion as we stated in our March 8, 2012 testimony. Further, our 
analysis of DOD's data shows net annual recurring savings are expected 
to be about $3.8 billion, while the 20-year net present value savings 
are about $9.9 billion, based on DOD's fiscal year 2011 BRAC budget 
submission. We plan to issue our final report related to BRAC 2005 
costs and savings in May of this year.
    Mr. Forbes. If Congress were to consider another round of BRAC, how 
can Congress ensure that a quicker payback is provided? What are the 
limiting factors?
    Mr. Lepore. Congress has a role early in the BRAC process in 
codifying the criteria that DOD and the BRAC Commission use to evaluate 
BRAC recommendations. If Congress authorizes a future BRAC round, and 
if minimizing payback time were a key goal of that round, amending the 
criteria used to evaluate BRAC recommendations to include the extent 
and timing of potential costs and savings as part of the primary 
criteria may help to achieve that goal. Although anticipated savings 
resulting from BRAC implementation remained an important consideration, 
the Secretary of Defense made it clear at the outset for the 2005 BRAC 
round that military transformation was the primary goal. To facilitate 
that goal, the selection criteria used to develop and evaluate the 
candidate recommendations made enhancing military value the primary 
selection criteria and included as ``other'' or secondary criteria the 
``extent and timing of potential costs and savings, including the 
number of years, beginning with the date of completion of the closure 
or realignment, for the savings to exceed costs.'' Thus, the choices 
that DOD makes in terms of selecting the goals of the round, the 
reasons for doing another BRAC, and the selection criteria can help to 
determine the nature of the candidate recommendations that DOD forwards 
to the BRAC Commission for approval. If saving money is a key goal of a 
future BRAC round, should Congress authorize such a round, it is a fair 
question to ask DOD what goals they propose and how the selection 
criteria will help to achieve those goals.
    There are two limiting factors associated with payback periods. One 
limitation that could affect Congress' ability to ensure that a future 
BRAC round provides a quicker payback period involves the accuracy of 
DOD and BRAC Commission cost and savings estimates. If the expected 
costs increase, or the expected savings decrease during the BRAC 
implementation timeframe, the payback period would be longer than DOD 
or the BRAC Commission originally estimated. Another limitation is the 
indicator used to assess payback. We believe that the 20-year net 
present value of BRAC recommendations is a key indicator of the net 
result from up-front implementation costs and the resulting savings 
because it takes into account the time value of money; that is, net 
present value considers when a dollar amount, such as savings, is 
received during the 20 year period. As a result, annual savings and 
other dollar amounts receive different weights depending on when they 
occur, reflecting the fact that savings received further into the 
future are less valuable than savings received sooner. In payback 
period analysis, savings for different years would be treated the same. 
For the 2005 BRAC round, both DOD and the BRAC Commission calculated 
the net present value savings over a 20-year period ending in 2025 that 
we believe provides a more comprehensive analysis of expected savings 
in comparison to the payback calculation.
    Mr. Forbes. DOD's estimates of the cost to implement its BRAC 
recommendations have increased by $15 billion to date. What is GAO's 
assessment as to why estimates increased?
    Mr. Lepore. GAO found that, compared to the BRAC Commission's 2005 
estimate, the cost to implement the 2005 BRAC round has grown by about 
$14.1 billion using DOD's fiscal year 2011 BRAC budget submission data 
submitted to Congress. In 2007, officials told us that the large volume 
of BRAC-related military construction combined with ongoing 
reconstruction following hurricane Katrina could have contributed to 
increased construction costs for building materials and labor. This may 
have contributed to the overall increase in implementation costs. 
Further, according to a recent OSD analysis of the increase in one-time 
implementation costs, about $10 billion of the increase was 
attributable to military construction costs as DOD identified the need 
for new and renovated facilities over the fiscal years 2006 through 
2011 implementation period. In a March 2010 testimony, the Deputy 
Undersecretary of Defense for Installations and Environment 
characterized the military construction for BRAC 2005 as a major engine 
of recapitalization. Other increases in costs were for inflation and 
program management. We plan to issue our final report related to BRAC 
2005 costs and savings in May of this year and provide further details 
regarding reasons for cost increases and specific examples.
    Mr. Forbes. In your assessment, has the Department been able to 
provide accurate forecasts to gaining installations that coincide with 
community infrastructure? Has the Department's inaccurate forecasts of 
installation loading led to an over building in the communities to 
support the new force structure? What lessons learned can be provided 
as to discussions with the local communities?
    Mr. Lepore. A) As we reported in June 2008, some communities 
surrounding DOD growth installations had begun to identify 
infrastructure needs to help support expected personnel growth, but 
planning efforts were hampered by a lack of consistent and detailed 
planning information. At the time of our review, over half of the 
communities we surveyed expressed concerns about the completeness of 
the personnel data they received from DOD. For example, some 
communities expressed that they had not received reliable information 
on such issues as the number and ages of dependent children expected to 
accompany incoming service members and attend school in the community. 
As a result, these communities were concerned about their ability to 
effectively plan and obtain financing for critical infrastructure 
projects such as school construction. Although the consistency of 
personnel relocation data DOD provided had improved somewhat at the 
time of our review, we made a recommendation to DOD addressing this 
issue as explained in part C of this question.
    B) GAO has not conducted a review of the impact of BRAC 
recommendations on communities affected by DOD growth since June 2008, 
and we did not assess the extent to which inaccurate forecasts may have 
led to overbuilding in that report. However, in that June 2008 report, 
we concluded that, although the long-term outlook for communities 
surrounding growing DOD facilities is generally encouraging, the very 
real challenges many communities face to accommodate an influx of 
military personnel requires carefully targeted investments and 
judicious use of local, state, and federal resources. While communities 
unable to provide needed infrastructure improvements in a timely manner 
could face overcrowded schools, congested roadways, and overburdened 
public services, some communities could make substantial investments or 
incur large debts only to find that new residents would be longer in 
coming or fewer in number than expected. Hence, accurate, detailed, and 
timely planning information is vital to both maximize the efficient use 
of resources and to ensure the highest quality of life possible for 
relocating DOD personnel and their families.
    C) We further reported in June 2008 that high-level leadership 
attention was needed to better coordinate and leverage federal 
resources to assist communities affected by DOD activities. Because 
communities surrounding these locations play a vital role in providing 
support to the military, it has been long-standing DOD policy that DOD 
should take the leadership role within the federal government in 
helping communities adapt to the effects of various defense program 
activities. DOD chairs the President's Economic Adjustment Committee, 
which consists of 22 federal agencies and is charged with ensuring that 
communities that are substantially and seriously impacted by DOD 
actions are aware of available federal economic adjustment programs. 
This Committee is also responsible for identifying problems that states 
and communities face as a result of defense actions; assuring 
interagency and intergovernmental coordination and adjustment 
assistance; and serving as a clearinghouse to exchange information 
among federal, state, regional, and community officials in the 
resolution of community economic problems. Within DOD, the Office of 
Economic Adjustment, a field activity under the Office of the Under 
Secretary of Defense for Acquisitions, Technology, and Logistics, 
provides administrative support for the Committee in addition to its 
duties to provide technical and planning assistance to affected 
communities. We recommended in our June 2008 report that the Secretary 
of Defense, as chair of the President's Economic Adjustment Committee, 
should direct the Under Secretary of Defense for Acquisition, 
Technology, and Logistics to holding regular meetings of the full 
executive-level Committee and by serving as a clearinghouse of 
information for identifying expected community impacts and problems as 
well as identifying existing resources for providing economic 
assistance to communities affected by DOD activities. This 
clearinghouse would provide a centralized source for information from 
all military services regarding personnel planning information, as well 
as information regarding any resources available at the federal, state, 
local, and private-sector levels that can help address potential 
infrastructure gaps at the affected communities. In addition, this 
information should be updated at least quarterly and made easily 
available to all interested stakeholders at the local, state, and 
federal levels. At the time of our report, DOD had left the workings of 
the Committee to its Office of Economic Adjustment.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. You indicated there were about 20,000-25,000 people 
who work at the Pentagon. What is the breakdown of that figure between 
military, civilians, and contractors?
    Dr. Robyn. The Washington Headquarters Service (WHS) reports that 
there are approximately 20,750 personnel working in the Pentagon. The 
breakdown is: 8,700 civilians, 6,750 military and 5,300 contractors.
    Ms. Bordallo. Do you believe that public-private competition 
requirements, 10 U.S.C. 2461 and the current moratorium on such should 
apply to work performed by civilians that may transfer to another base 
as a result of a BRAC action and would then be performed by a 
contractor who is performing the same service at the receiving base?
    Dr. Robyn. When a BRAC recommendation relocates a function from one 
installation to another, the function is assumed by the organization at 
the receiving location. As part of this process, the Department looks 
at the capacity of the receiving location to determine whether the 
relocation of that function also requires the transfer of personnel. In 
the case where the receiving location is performing the function via 
contract, it is unlikely that a transfer of personnel would be 
required. Because the statutory BRAC process determined how and where 
the function would be performed, there is no action to take under 
section 2461.
    Ms. Bordallo. Do you support efforts to get better accounting and 
visibility into contracted services, as required by law?
    Dr. Robyn. In November 2011, the Department submitted a 
comprehensive plan to the defense committees to document contractor 
full time equivalents (CFTE) that complies with requirements set forth 
in title 10 for the inventory of contracts for services. The plan 
included both short- and long-term actions. As delineated in that plan, 
the Department issued guidance on December 29, 2011, directing the 
preparation of the fiscal year 2011 inventory of contracts for 
services. That guidance was a significant step forward in meeting the 
requirements of title 10, as it broadened the scope of responsibility 
to all Components of the Department that rely on contracted support, 
and delineated the requirements for reviewing contracted services in 
accordance with the statutory requirements. Based on this guidance, we 
are working with all DOD organizations towards completion of a more 
accurate and comprehensive data set to be submitted this summer.
    Additionally, together with the staff of the Department's Chief 
Management Officer, we are working towards implementing the Army's 
``Contractor Manpower Reporting Application'' across the entire DOD-
enterprise, in order to leverage established processes, lessons 
learned, and best practices to comply with the law in the most cost 
efficient, effective, and consistent manner.
    Ms. Bordallo. In your opening remarks, you stated that the 
Department will be forced to use existing authorities to begin the 
realignment and closure process in the absence of the Congress passing 
new BRAC authority. Could you tell us in the absence of BRAC authority 
what criteria would be used for determining which bases you would 
realign or close and what internal deliberation processes you are using 
within the Department to make crucial decisions about closing or 
realigning assets?
    Dr. Robyn. Strategic and fiscal imperatives leave the Department no 
alternative--we must close and realign military bases here in the 
United States. Thus, if Congress does not authorize additional BRAC 
rounds for this purpose, the Department will be forced to use its 
existing authorities to begin to support our new defense strategy. 
Should this course of action be necessary, a plan and exact methodology 
will be developed. Rest assured that decisions will only be made after 
careful analysis of the CONUS installation inventory against all 
relevant factors to include any force structure changes. With a goal of 
long-term cost reduction, we will assess the costs and savings of each 
proposed action and identify those with the highest payback.
    Ms. Bordallo. Are there any areas that you plan to review from an 
inter-service standpoint, and if so, what are those areas? For those 
areas, what steps are you taking to ensure that each military service 
takes interservice concerns into consideration when downsizing 
personnel or making decisions about programmatic changes?
    Dr. Robyn. [The information referred to was not available at the 
time of printing.]
    Ms. Bordallo. Recent changes in depot law have instructed that the 
Department establish organic (government-owned) depot maintenance 
capacity for new weapons systems within 4 years of fielding. Although 
the Department has scaled back modernization plans in some areas, there 
are a number of new systems in various stages of the procurement 
process. How will the Department account for these programs when making 
decisions about base closures and/or realignments?
    Dr. Robyn. The Department has asked Congress to authorize two BRAC 
rounds using the same process as it authorized for the 2005 round. BRAC 
is a statutory process under which the Secretary of Defense develops 
recommendations for closures and realignments based on a 20-year force 
structure plan and statutory selection criteria. In the analysis the 
Department must make military value the primary consideration, consider 
all installations equally, and all data submitted for use in the 
analysis must be certified as accurate and complete. The Department 
will carefully and fully consider all applicability statutory 
requirements as it undertakes the BRAC analysis, as noted above.
    Statutory Selection Criteria: Military Value Criteria: 1. The 
current and future mission capabilities and the impact on operational 
readiness of the total force of the Department of Defense, including 
the impact on joint warfighting, training, and readiness.
    2. The availability and condition of land, facilities, and 
associated airspace (including training areas suitable for maneuver by 
ground, naval, or air forces throughout a diversity of climate and 
terrain areas and staging areas for the use of the Armed Forces in 
homeland defense missions) at both existing and potential receiving 
locations.
    3. The ability to accommodate contingency, mobilization, surge, and 
future total force requirements at both existing and potential 
receiving locations to support operations and training.
    4. The cost of operations and the manpower implications.
    Other Criteria:
    5. The extent and timing of potential costs and savings, including 
the number of years, beginning with the date of completion of the 
closure or realignment, for the savings to exceed the costs.
    6. The economic impact on existing communities in the vicinity of 
military installations.
    7. The ability of the infrastructure of both the existing and 
potential receiving communities to support forces, missions, and 
personnel.
    8. The environmental impact, including the impact of costs related 
to potential environmental restoration, waste management, and 
environmental compliance activities.
    Ms. Bordallo. Title 10 requires depot core workload to be conducted 
by government employees at a level that ensures efficiency with the 
goal to generally be one of cost effectiveness since this workload is 
funded through working capital funds. How will the Department consider 
the impact on hourly rates when evaluating industrial facility 
locations for closure or realignment?
    Dr. Robyn. The Department will carefully and fully consider all 
applicability statutory requirements as it undertakes the BRAC 
analysis.
    Ms. Bordallo. Title 10 grants the Department waiver authority for 
core requirements and for 50/50 requirements for depot maintenance. 
Since a waiver request should be very rare, will the Department assure 
the Committee that it will assume compliance with the law without 
waivers when evaluating locations for closure or realignment?
    Dr. Robyn. The Department will carefully and fully consider all 
applicability statutory requirements as it undertakes the BRAC 
analysis.
    Ms. Bordallo. During development of BRAC goals, what consideration 
will be given to ensuring the preservation of the organic defense 
industrial base as a critical component of national defense?
    Dr. Robyn. The Department's January 2012 strategic guidance, 
Sustaining U.S. Global Leadership: Priorities for 21st Century Defense 
states, ``. . . the Department will make every effort to maintain an 
adequate industrial base . . .'' This document will inform our goal 
development and decision making.
    Ms. Bordallo. Does the Department plan to look at Government-Owned, 
Contractor-Operated facilities as possible locations for closure or 
realignment?
    Dr. Robyn. Yes. The BRAC statute requires the Department to treat 
all installations equally, and that includes Government-Owned, 
Contractor-Operated facilities.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. COURTNEY
    Mr. Courtney. In your testimony, you said that ``If Congress does 
not authorize additional BRAC rounds, the Department will be forced to 
use its authority to begin to close and realign bases'' and that if the 
Pentagon is forced ``to operate outside the BRAC process, it is 
severely constrained in what it can do to help local communities.'' 
Please explain the existing authorities the Department would plan to 
use outside of the BRAC process should a new round(s) not be 
authorized. Please outline any limitations that currently exist in the 
use of such authorities. In addition, please describe the process by 
which the Department would identify which facilities, commands, or 
other activities to close or realign under these authorities.
    Dr. Robyn. [The information referred to was not available at the 
time of printing.]
    Mr. Courtney. In your testimony, you say that ``techniques used to 
analyze various capacity measures in 2004 indicated that the Department 
had 24 percent excess capacity overall'' and that ``because BRAC 2005 
eliminated only about three percent of the Department's capacity, we 
believe we have significant excess capacity today.'' This seemingly 
suggests that the Department today has 21 percent excess capacity, but 
based on a 2004 estimate. Will the Department be conducting an updated 
estimate to support the request for two new BRAC rounds?
    Dr. Robyn. [The information referred to was not available at the 
time of printing.]
    Mr. Courtney. In regards to GAO's work on a ``Lessons Learned'' 
report to be released later this year, please describe whether the 
review will include any examination of the DOD's internal process for 
collecting, evaluating and scoring the data it collects to judge 
installations against the BRAC criteria.
    Mr. Lepore. In our ongoing work to report lessons learned related 
to the 2005 BRAC round, we intend to determine whether opportunities 
exist to improve the development of candidate BRAC recommendations by 
DOD and the review of BRAC recommendations by the BRAC Commission. For 
that aspect of the work, we plan to examine a variety of different 
processes both DOD and the Commission used to assess and evaluate the 
candidate recommendations, to include DOD's analytical cost comparison 
model that calculated the costs, savings, and return on investment of 
candidate realignment and closure actions.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
